      THE FEDERAL BUREAU OF
INVESTIGATION’S MANAGEMENT OF THE
 TRILOGY INFORMATION TECHNOLOGY
      MODERNIZATION PROJECT

          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division

             Audit Report 05-07
               February 2005
  THE FEDERAL BUREAU OF INVESTIGATION’S MANAGEMENT
        OF THE TRILOGY INFORMATION TECHNOLOGY
                MODERNIZATION PROJECT


                        EXECUTIVE SUMMARY

       This audit assesses the progress of the Federal Bureau of
Investigation’s (FBI) Trilogy project. Initiated in mid-2001, the
objective of Trilogy is to modernize the FBI’s information technology
(IT) infrastructure; provide needed IT applications for FBI agents,
analysts, and others to efficiently and effectively do their jobs; and lay
the foundation for future IT improvements in the FBI.

      Trilogy consists of three parts: 1) upgrading the FBI’s hardware
and software, 2) upgrading of the FBI’s communications network, and
3) upgrading the FBI’s five most important investigative applications,
including its antiquated case management system.

      Because of the FBI’s immediate and critical need for modern IT
systems and the past problems in the Trilogy project, we conducted
this audit to assess the FBI’s progress in meeting cost, schedule,
technical, and performance targets for the three components of
Trilogy. We also examined the extent to which Trilogy will meet the
FBI’s current and longer-term IT needs.

      In April 2004, the FBI completed the first two components of
Trilogy. Among other improvements, the FBI has improved its IT
infrastructure with new desktop computers for its employees and has
deployed a Wide Area Network to enhance electronic communication
among FBI offices and with other law enforcement organizations.
However, despite additional funding the FBI had received to accelerate
Trilogy, the first two phases of Trilogy were not completed any faster
than originally planned.

       While the infrastructure components are now in place to support
improved user applications, the FBI is still far from implementing the
third component of Trilogy. In this third phase, the FBI has been
seeking to implement a case management system called the Virtual
Case File (VCF), which was intended to replace the FBI’s antiquated
case management application, the Automated Case Support system
(ACS). The VCF was designed to improve the FBI’s ability to manage
investigative case files, facilitate data and document searches, and



                                   -i-
share information within and among FBI offices. The need for a new
automated investigative case management system to replace the
existing obsolete and limited ACS system is vital to the FBI’s ability to
perform its mission effectively.

      Yet, the VCF has proven to be the FBI’s most troublesome IT
challenge in the Trilogy project. Our audit found that as of December
2004 the VCF still remains under development. Moreover, after more
than three years and $170 million expected to be spent developing the
VCF, the FBI has not provided a clear timetable or prospect for
completing the VCF.

      Between January and March 2005, the FBI plans to test a “proof-
of-concept,” or prototype, VCF. This test is designed to demonstrate
that documents can be approved electronically and uploaded into the
ACS. However, this very limited version of the VCF does not provide
the FBI with the intended case management and information- sharing
capabilities.

      Instead, FBI officials informed the OIG that a parallel effort is
underway in the FBI to reevaluate and update its requirements for a
case management system and to identify solutions for a multi-agency
case management framework called the Federal Investigative Case
Management System (FICMS). The FBI believes this will provide a
blueprint to guide the FBI in eventually acquiring the capabilities that
the current VCF effort has been unable to accomplish and facilitate
interagency information sharing. Working with officials at the
Departments of Justice and Homeland Security, the FBI expects to
enter into a contract by April 30, 2005, with a vendor to develop the
framework for an interagency case management system for law
enforcement components of the two participating departments,
including the FBI. The FBI expects the resulting case management
system to use off-the-shelf technology. The FBI is serving as the
executive agent to lead the process of obtaining vendor information on
potential solutions and to award a contract for FICMS.

      However, the FBI informed us that until it enters into the FICMS
contract, which is intended to eventually result in a case management
system to replace the largely unsuccessful current VCF effort, it will
not know with certainty the proposed schedule and cost for completing
the third component of the Trilogy project — replacing its antiquated
case management system. Further, any system resulting from the
FICMS effort is unlikely to benefit substantially from the 3-years and



                                  - ii -
$170 million already devoted to the VCF effort because of
technological advances since the FBI began the Trilogy project in 2001
and because of the FBI’s current planned approach to adapt off-the-
shelf systems to meet its case management requirements.

      We concluded that the delays and cost growth in completing the
Trilogy project were partially attributable to: 1) design modifications
the FBI made as a result of refocusing its mission from traditional
criminal investigations to preventing terrorism, 2) poor management
decisions early in the project, 3) inadequate project oversight, 4) a
lack of sound IT investment practices, and 5) other lessons learned
over the course of the project.

History of the Trilogy Project

      As noted above, the Trilogy project was intended to upgrade the
FBI’s 1) hardware and software — referred to as the Information
Presentation Component (IPC), 2) communications network — referred
to as the Transportation Network Component (TNC), and 3) the five
most important investigative applications — referred to as the User
Applications Component (UAC). The IPC and TNC upgrades provide
the physical infrastructure needed to run the applications for the UAC
portion.

      Early in the project, the FBI decided it needed to modify Trilogy’s
design requirements due to changes in FBI priorities after the Hanssen
espionage case, the belated production of documents in the Oklahoma
City bombing case, and the September 11, 2001, terrorist attacks.
Most significantly, the UAC concept for the project changed from
consolidating a variety of existing individual user applications to
developing a new overall workflow process for FBI agents, analysts,
and support personnel, which became known as the VCF.1 The VCF
was intended to develop a new case management system that would
vastly improve the FBI’s ability to manage investigative leads,
evidence, and cases; analyze and share information; and approve and
manage the flow of paperwork.



       1
          Although FBI documents and reports to Congress have continuously referred
to the UAC as the third component of Trilogy, FBI officials in commenting on a draft
of this report told us that after September 11, 2001, the VCF replaced the UAC. We
use both terms in this report since FBI documents refer to the UAC as well as to the
VCF user application.



                                       - iii -
      Initially, the Department of Justice required the FBI to use two
contractors for the Trilogy project because the project was considered
too large for a single contractor to manage. The FBI combined the IPC
and TNC portions of Trilogy in one contract because both components
involved physical IT infrastructure enhancements. That contract was
signed in May 2001 with DynCorp (which later merged into Computer
Sciences Corporation (CSC)).

      In June 2001, the FBI awarded a contract to develop the UAC
portion of Trilogy to another contractor, Science Applications
International Corporation (SAIC). The purpose of the UAC was to:

     •   provide the ability to find information in FBI databases
         without having prior knowledge of its location, and to search
         all FBI databases with a single query through the use of
         search engines;

     •   improve capabilities to share information inside and outside
         the FBI;

     •   provide access to authorized information from internal and
         external databases; and

     •   allow the evaluation of cases and crime patterns through the
         use of commercial and FBI-enhanced analytical and case
         management tools.

       After the September 11 terrorist attacks, the FBI reviewed the
two Trilogy contracts and determined that the project did not fully
meet the FBI’s changed IT needs because of a significant design
limitation. Providing web-enablement of the existing but antiquated
and limited ACS system, as was originally planned, would not provide
the investigative case management capabilities required to meet the
FBI’s post-September 11 priorities and mission. Instead, the FBI
decided to develop a new case management system, the VCF, that
would make both criminal and terrorist investigation information
readily accessible throughout the FBI. Further, the FBI developed
plans to accelerate Trilogy’s planned completion because the original
3-year modernization timeframe was considered too slow in light of
the FBI’s urgent need to modernize its IT.




                                 - iv -
Trilogy Schedule

      Our review found that the Trilogy project has been plagued by
delays, and it is still not clear when the final component of the Trilogy
project (originally called the UAC and now called the VCF) will be
completed. Without completion of the VCF user application, the FBI
continues to lack a fully functional case management system. This
raises national security implications because the FBI is continuing to
rely on the ACS and paper files, which hampers FBI agents and
analysts from adequately searching and sharing information from
investigative files.

      The original target dates for completing the IPC/TNC
infrastructure and the UAC were May and June 2004, respectively.
However, even before September 11, 2001, the FBI was looking for
ways to accelerate this schedule.

      As described in this report, although the FBI received $78 million
to accelerate Trilogy, the IPC/TNC portion was not completed more
quickly than the original schedule. Instead the IPC/TNC portion was
completed by April 2004, only slightly before the original pre-
accelerated target date of May 2004.

      UAC/VCF Completion Dates

      The user applications portion of the Trilogy upgrade is still not
completed, and our audit found that the FBI does not know when this
component will be implemented. The FBI told us that the completion
date of this portion of Trilogy depends on the outcome of the FICMS
contracting process that the FBI believes will eventually lead to a fully
functional investigative case management system.

       From its inception, this portion of Trilogy has undergone
repeated revision and schedule delays. In June 2002, the FBI decided
to deploy the UAC in two phases under an accelerated plan: delivery
one in December 2003 and delivery two in June 2004 (a third delivery
eventually was added, also for June 2004). Delivery one of the UAC
was supposed to consist of the VCF, which was intended to be a
completely new case management system with data migrated from the
ACS. The VCF also was intended to serve as the backbone of the FBI’s
information management systems, replacing paper files with electronic
case files. The contractor, SAIC, provided the first delivery, or
version, of the VCF in December 2003 in accordance with the



                                  -v-
accelerated schedule. However, the FBI did not accept that version
because it was not a functional system and did not meet the FBI’s
requirements. Deliveries two and three under the current contract
consisting of enhancements and additional operational capabilities to
the VCF, did not occur because of the difficulties experienced in
completing the initial version of the VCF. The FBI informed us that
these deliveries are not being pursued given the problems in the first
delivery and the FBI’s plans to seek a common interagency platform
for a case management system.

       With continued slippage in the VCF schedule, the FBI announced
in June 2004 — the original target completion date prior to the FBI’s
attempts to accelerate the development schedule — a new two-track
plan for continuing work on the VCF involving an “Initial Operational
Capability” and “Full Operational Capability.” The first track is an
6-week test of an electronic workflow process scheduled to be
completed in March 2005. During this test, one FBI field office and a
smaller resident FBI agency office will enter investigative lead and
case data into the “proof-of-concept,” or prototype, VCF file system
and this information will be uploaded into the ACS. Paper case files
will be created through the existing ACS system upon electronic
approval of the information entered into the VCF. The FBI intends to
obtain user comments on, and assess the performance of, this new
workflow system.

       Yet, the version of the VCF being tested in Track One will not
provide the FBI with the case management application as envisioned
throughout the Trilogy project because it represents just one
developmental step in creating a fully functional investigative case
management system. The tested version does not offer case
management capabilities, but rather is designed to demonstrate that
documents can be approved electronically and uploaded into the
existing, obsolete ACS.

       The second track, called Full Operational Capability, is intended
to reevaluate and update requirements for the next phase of
developing a functional case management system to replace the ACS.
To aid in determining the necessary requirements for a new case
management system, the FBI will identify user activities and processes
for creating and approving documents and managing investigative
leads, evidence, and cases. The FBI states that information gleaned
during Track Two will help the FBI update and confirm the case




                                 - vi -
management requirements to be met through a new interagency
system that will replace the current VCF effort.

      On September 14, 2004, the Department of Justice and the
Department of Homeland Security (DHS) — with the FBI acting as
executive agent — issued a Request for Information (RFI) to discuss
with potential vendors the creation of the interagency FICMS
framework because the participating investigative agencies share in
common an estimated 80 percent of the case management
requirements. The FICMS effort is expected to ultimately result in
what the FBI expected the VCF to provide: the ability to manage
investigative leads, evidence, and cases; analyze and share
information; and approve and manage the flow of paperwork.

      On September 28, 2004, the FBI and the Department, along with
the DHS and the Office of Management and Budget (OMB), presented
an overview of the FICMS concept to the potential vendors in order to
obtain information on available or potential solutions to meet the
Department’s and DHS’s case management requirements. Given the
technological advances over the last three years, the FBI anticipates
that an off-the-shelf federal case management system might be
adapted to meet the FBI’s user applications requirements.

       The FBI’s Chief Information Officer (CIO) told us that until a
contract is signed for the FICMS project, which he expects to occur by
April 30, 2005, he cannot estimate the schedule for completing an
investigative case management system for the FBI.

Trilogy Costs

       The current total funding for the FBI’s Trilogy IT modernization
project is $581.1 million. As described in the chart below, Trilogy
began as a 3-year, $379.8 million project. The FBI informed Congress
in its February 2002 Quarterly Congressional Status Report that with
an additional $70 million in FY 2002 funding, it could accelerate the
deployment of Trilogy. Congress then supplemented Trilogy’s budget
with $78 million from the Emergency Supplemental Appropriations Act
of January 2002 to expedite the deployment of all three components.
Therefore, total funding for Trilogy increased from $379.8 million to
$457.8 million by the end of FY 2002.

      In December 2002, the FBI estimated $137.9 million was needed
to complete Trilogy, in addition to the $78 million it received to



                                 - vii -
accelerate completion of the project. Congress approved a $110.9
million reprogramming of funds that took into account DynCorp’s
estimates to complete the IPC/TNC portions, as well as an estimate of
SAIC’s costs to complete the UAC portion. The $110.9 million
reprogramming increased the FBI’s total available funding for the
project to $568.7 million. In addition, $4.3 million for operations and
maintenance and $8 million for computer specialist contractor support
were added in FY 2003, for a total of $581.1 million.

          Component Area        Original Plan        Current Plan
                                 ($millions)          ($millions)
     TNC/IPC                            $238.6               $337.0
     UAC                                $119.2               $170.0
     Contractor Computer                   n/a                 $8.0
     Specialists
     Integrator                                n/a            $5.5
     Project Management                      $22.0           $32.5
     Management                                n/a           $28.1
     Reserve
     Total                                  $379.8          $581.1

      Currently, the FBI has not provided an estimated completion
date for the third phase of Trilogy or an estimated cost. Pending the
upcoming contract for FICMS, the FBI also does not have a firm cost
estimate for bringing an investigative case management system to
completion.

Reasons for Trilogy’s Delays and Cost Increases

      Various reasons account for the delays and associated cost
increases in the Trilogy project, including:

      •      poorly defined and slowly evolving design requirements,

      •      contracting weaknesses,

      •      IT investment management weaknesses,




                                 - viii -
       •      lack of an Enterprise Architecture,2

       •      lack of management continuity and oversight,

       •      unrealistic scheduling of tasks,

       •      lack of adequate project integration, and

       •      inadequate resolution of issues raised in reports on Trilogy.

A more detailed discussion of the reasons for Trilogy’s schedule, cost,
technical, and performance problems is included in the full audit
report.

       The combination of these factors resulted in a project that has
yet to be fully implemented. The current version of the VCF will not
provide the needed case management capability to replace the
obsolete but still functioning ACS. Whether and how soon the FICMS
effort will result in the capabilities originally envisioned for the VCF
remains to be seen.

Conclusions

      The FBI recognized the need to modernize its IT systems before
the September 11 terrorist attacks, but that event underscored the
FBI’s significant problems in effectively retrieving, analyzing, and
sharing investigative information needed to carry out its mission.
Although attempts to accelerate completion of the Trilogy project with
additional funding were unsuccessful, the FBI completed the sorely
needed infrastructure upgrade portion of the project in late April 2004.

       However, we remain concerned about the FBI’s ability to
complete and deploy the VCF so that FBI agents and analysts can
effectively enter, retrieve, analyze, and share investigative case
information and other data. Costing an estimated $170 million to date
and in development for more than 40 months so far, the VCF is
scheduled to undergo testing of workflow features of a prototype from
January to March 2005. But the full VCF will not be functional or

       2
         According to the Government Accountability Office (GAO), an Enterprise
Architecture is a set of descriptive models such as diagrams and tables that define,
in business and technology terms, how an organization operates today, how it
intends to operate in the future, and how it intends to invest in technology to
transition from today’s operational environment to tomorrow’s.



                                        - ix -
deployed at that time, and the FBI is moving away from the existing
VCF as the solution for its case management requirements. Instead,
the FBI is relying on the future (and uncertain) development of an
interagency FICMS framework intended to result in a system that
meets its case management needs. However, as of December 2004,
the FBI informed the OIG it was not in a position to state the schedule
or cost for completing and deploying such an investigative case
management system until a FICMS contract is awarded in the third
quarter of FY 2005.

      In the interim, the critical need to replace the ACS, the FBI’s
obsolete case management system, remains. During this period, the
FBI’s operations remain significantly hampered due to the poor
functionality and lack of information-sharing capabilities of its current
IT systems.

OIG Recommendations

       In this report, we make nine recommendations for improving the
FBI’s management of the remaining aspects of the Trilogy project and
its IT management in general. These recommendations are:

      •   Replace the obsolete ACS system as quickly and as cost-
          effectively as feasible.

      •   Reprogram FBI resources to meet the critical need for a
          functional case management system.

      •   Freeze the critical design requirements for the case
          management system before initiating a new contract and
          ensure that the contractor fully understands the requirements
          and has the capability to meet them.

      •   Incorporate development efforts for the VCF into the
          development of the requirements for any successor case
          management system.

      •   Validate and improve as necessary financial systems for
          tracking project costs to ensure complete and accurate data.

      •   Develop policies and procedures to ensure that future
          contracts for IT-related projects include defined requirements,




                                   -x-
    progress milestones, and penalties for deviations from the
    baselines.

•   Establish management controls and accountability to ensure
    that baselines for the remainder of the current user
    applications contract and any successor Trilogy-related
    contracts are met.

•   Apply ITIM processes to all Trilogy-related and any successor
    projects.

•   Monitor the Enterprise Architecture being developed to
    ensure timely completion as scheduled.




                            - xi -
                              TABLE OF CONTENTS

INTRODUCTION .......................................................................... 1
     Background ....................................................................... 1
     Beginning of the FBI’s IT Modernization Efforts ....................... 2
     Trilogy Components and Design ............................................ 3
     Trilogy Schedule and Budget ................................................ 6
     Project Management and Contractor Assistance .................... 10
     Other Trilogy Contract Issues ............................................. 10

FINDINGS AND RECOMMENDATIONS ........................................... 12

Finding: The Schedule, Cost, Technical, and Performance
         Baselines of the Trilogy Project ....................................... 12
      Need for Trilogy................................................................ 13
      Infrastructure Components ................................................ 13
      User Applications and the Virtual Case File ........................... 15
      Problems in Trilogy’s Development ...................................... 22
      The FBI’s Current and Future IT Needs ................................ 32
      Conclusion ....................................................................... 35
      Recommendations ............................................................ 37

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 39

STATEMENT ON INTERNAL CONTROLS ......................................... 40

APPENDIX 1:           OBJECTIVES, SCOPE, AND METHODOLOGY .......... 41

APPENDIX 2:           PRIOR REPORTS ON THE FBI’S INFORMATION
                      TECHNOLOGY .................................................. 42

APPENDIX 3:           DOJ REQUEST FOR INFORMATION FOR THE
                      FEDERAL INVESTIGATIVE CASE MANAGEMENT
                      SYSTEM .......................................................... 49

APPENDIX 4:           EXECUTIVE ORDER 13356 ................................. 51

APPENDIX 5:           CHIEF INFORMATION OFFICE ORGANIZATION
                      STRUCTURE..................................................... 55

APPENDIX 6:           GLOSSARY OF ACRONYMS ................................. 56
APPENDIX 7:   THE FBI’s RESPONSE TO THE DRAFT REPORT ...... 57

APPENDIX 8:   OFFICE OF THE INSPECTOR GENERAL ANALYSIS
              AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
              REPORT .......................................................... 73
                               INTRODUCTION

Background

       In May 2002, the FBI Director announced a major reorganization
to accomplish the FBI’s top priority of preventing terrorism. To
support this transition to a redesigned and refocused agency, FBI
officials have repeatedly highlighted the need for new and improved
information technology (IT) systems. Consequently, upgrading IT to
successfully perform the FBI’s mission is among the FBI’s highest
priorities.

       Even before the September 11, 2001, terrorist attacks, the FBI
realized that its IT infrastructure and case tracking system were
antiquated and in desperate need of modernization. However, the
September 11 attacks and subsequent focus on terrorism prevention
underscored the need for IT modernization so that investigative
information would be readily available throughout the FBI for analysis
and “connecting the dots.”

       The obsolete and severely limited capability of the FBI’s IT has
been well-documented in prior Office of the Inspector General (OIG)
reports and congressional testimony.3 In July 2002, a former FBI
project management executive testified before the Senate Judiciary
Committee that agents must go through 12 computer screens just to
upload one document in the Automated Case Support (ACS) system,
the FBI’s primary investigative computer application that uploads and
stores case files electronically. The former FBI executive stated,
“there’s no mouse, there’s no icon, there’s no year 2000 look to it, it’s
all very keyboard intensive.” The limited capabilities of the ACS and
its lack of user-friendliness meant that agents and analysts could not
easily acquire and link information across the FBI, and some personnel
avoided the system altogether.

      In March 2004, the Director referred to the FBI’s IT structure,
including the ACS system, as archaic. He added that at the time of the
September 11 terrorist attacks, the FBI’s technology systems were
several generations behind industry standards, and existing legacy
systems were approaching the 30-year mark. Other FBI managers

      3
         The OIG reports are summarized in Appendix 2 of this report. These reports
include An Investigation of the Belated Production of Documents in the Oklahoma
City Bombing Case, The FBI’s Management of Information Technology Investments,
and The FBI’s Implementation of Information Technology Recommendations.


                                       -1-
have stated that the implementation of Trilogy is vital to modernizing
the FBI’s IT infrastructure, and consequently to the FBI’s ability to
effectively perform its mission, including managing investigative cases
and sharing information FBI-wide to help prevent terrorist attacks.
While FBI officials stated that Trilogy is not intended to provide the FBI
with a state-of-the-art IT system, it is intended to lay the technological
foundation so that an effective IT system can be built. A former
Special Agent–in-Charge in the FBI’s New York City Field Office stated
that “Trilogy must improve the FBI’s IT systems. There is just no
other way that agents can continue operating with such limited
abilities.”

Beginning of the FBI’s IT Modernization Efforts

       As discussed in the OIG report entitled Federal Bureau of
Investigation’s Management of Information Technology Investments,
issued in December 2002, the FBI recognized in the 1990s that its IT
infrastructure was aging and in need of modernization. Beginning in
1997, the FBI proposed improvements to its IT infrastructure and
office automation. However, its major IT modernization projects went
unfunded, including the Information Sharing Initiative (ISI) in 1998
and eFBI in 2000.

      As a result, the FBI’s IT had not been substantially improved
since the early 1990s, and there was an increasingly urgent need to
modernize the FBI’s obsolete IT capabilities. According to FBI
documents, by September 2000:

      •   more than 13,000 of the FBI’s desktop computers were
          4 to 8 years old and could not run modern software;

      •   the communications capability (networks) between and within
          FBI offices was up to 12 years old;

      •   most of the FBI’s network components were no longer
          manufactured or supported;

      •   most resident agency offices were connected to the network
          at speeds equivalent to a 56k modem;

      •   agents were unable to reliably e-mail each other
          case-related information and often resorted to facsimiles; and



                                  -2-
       •   agents were unable to e-mail U.S. Attorney Offices, other
           federal agencies, or local law enforcement agencies.

      To address the need to modernize the FBI’s IT systems, the FBI
proposed a major technology upgrade plan to Congress in September
2000 called the FBI Information Technology Upgrade Project (FITUP).
Congress appropriated $379.8 million in November 2000 to fund FITUP
over a 3-year period, and the project was renamed Trilogy. The three
general objectives of this IT modernization project were to:

       •   provide the hardware and software tools for the FBI’s law
           enforcement mission;

       •   enable the FBI’s investigative personnel to easily and rapidly
           find, present, and manipulate required information; and

       •   transport and share information quickly and efficiently across
           the FBI.

Trilogy Components and Design

      In furtherance of these three general objectives, Trilogy was
intended to upgrade the FBI’s: 1) hardware and software, known as
the Information Presentation Component (IPC); 2) communication
networks, known as the Transportation Network Component (TNC);
and 3) the five most important investigative applications, known as
the User Applications Component (UAC).4

      The IPC and TNC upgrades were designed to provide the physical
infrastructure needed to run user applications. The IPC refers to how
users view and interact with information. It provides modern desktop
computers, servers, and commercial off-the-shelf office automation
software, including a web-browser and e-mail to enhance usability by
FBI employees. The TNC is the complete communications
infrastructure and support needed to create, run, and maintain the
FBI’s networks. It is intended to be the means by which the FBI
electronically communicates, captures, exchanges, and accesses
investigative information. The TNC includes high capacity wide-area



       4
         These five most important investigative applications were: 1) ACS,
2) IntelPlus, 3) Criminal Law Enforcement Application, 4) Integrated Intelligence
Information Application, and 5) Telephone Application.


                                        -3-
and local-area networks, authorization security, and encryption of data
transmissions and storage.

      The UAC portion was intended to upgrade and consolidate what
were seen as the 5 most important of the FBI’s 42 investigative
applications. The heart of the UAC portion of Trilogy became the
development of the Virtual Case File (VCF) to replace the obsolete
ACS. Because the FBI has 37 other investigative applications and
approximately 160 non-investigative applications that Trilogy was not
going to include or replace, Trilogy was intended to be a starting point
toward eventually upgrading the FBI’s entire IT environment.

      According to FBI and Department officials, the Department
required the FBI to use two contractors for Trilogy because the
Department considered the project too large for a single contractor to
manage. In December 2000, Congress approved the obligation of
$100.7 million for the first year of Trilogy, with an estimated 3-year
cost of $379.8 million.

       The FBI combined the IPC and TNC portions of Trilogy for one of
the contracts, because both components involved physical IT
infrastructure enhancements. The contract for the IPC/TNC portions
was awarded in May of 2001 to DynCorp, with a first year cost of $37
million. In March 2003, DynCorp merged into Computer Sciences
Corporation (CSC).

      The FBI awarded Science Applications International Corporation
(SAIC) the UAC portion of Trilogy in June 2001, with a first year cost
of $14.7 million. The UAC defined the software-based capabilities and
functions that employees can use to access and analyze investigative
information. The UAC was intended to provide the FBI with:

      •   improved communications inside and outside the FBI;

      •   access to properly authorized information from internal and
          external databases, using primarily commercial products;

      •   the capability to evaluate cases and crime patterns through
          the use of commercial and FBI-enhanced analytical and case
          management tools; and

      •   the ability to find information in FBI databases without having
          prior knowledge of its location, and to search all FBI


                                  -4-
           databases with a single query through the use of search
           engines.

      In the aftermath of the September 11, 2001, terrorist attacks,
the FBI reviewed the two Trilogy contracts — infrastructure and
applications — to determine if the project would still meet the FBI’s
needs in light of the agency’s changed priorities. The FBI also
developed plans to accelerate the completion of Trilogy because at the
time the project’s 3-year modernization timeframe was considered too
long.

      In addition to timeframe concerns, the review of the Trilogy
contracts identified a significant design limitation. Simply providing
web-enablement, or Graphical User Interface, to the ACS as originally
envisioned would not yield the investigative case management
capabilities required in the post-September 11 era.5 A Trilogy project
manager told us that the ACS only serves as a backup to the FBI’s
paper file system, that information within the system cannot be
changed or updated, and the technology is still severely outdated.6
Because the ACS is archaic, retaining the system as first envisioned
under Trilogy would preclude the FBI from developing a modern
system to make both criminal and terrorist investigation information
readily accessible FBI-wide.7

       But while implementation of Trilogy would mark a significant
modernization of the FBI’s past IT environment, the project only
represented the first major steps in upgrading the FBI’s IT capabilities
to fully support its mission. Or as one former FBI Chief Information
Officer (CIO) stated to the OIG in February 2002, the Trilogy
modernization project will get the FBI’s IT “out of the ditch and moving

       5
        Web-enablement would allow the current ACS system to be upgraded from
outdated “green screen” technology of the 1980s to a point-and-click technology
using a mouse.
       6
        In commenting on a draft of this report, the FBI stated that certain
subsystems within ACS provide the ability to maintain records within the system.
       7
         As discussed in the OIG report, An Investigation of the Belated Production of
Documents in the Oklahoma City Bombing Case (March 2002), the inefficiencies and
complexities of ACS, combined with the lack of a true information management
system, were contributing factors in the FBI’s failure to provide hundreds of
investigative documents to the defendants in the Oklahoma City bombing case. In
response to the OIG report, the FBI stated that the VCF would solve many of the
problems that this report noted.


                                        -5-
in the right direction.” Additionally, because the FBI’s IT systems were
in such need of improvement, FBI management pressed to implement
the Trilogy project as quickly as possible.

Trilogy Schedule and Budget

      Recognizing the poor state of its IT even before the September
11 terrorist attacks, the FBI was examining options to accelerate the
planned 3-year Trilogy project. In its July 6, 2001, Quarterly
Congressional Status Report the FBI stated that the IPC/TNC
infrastructure could be completed in June 2003, nearly one year ahead
of schedule, with a two-phase implementation plan. The FBI also
wanted to accelerate deployment of the urgently needed user
applications component, which was scheduled to take three years.

      The September 11 attacks provided even greater impetus to
completing Trilogy, and the FBI continued to explore options to
accelerate deployment of all three Trilogy components. The FBI
informed Congress in its February 2002 Quarterly Congressional
Status Report that it had developed a new plan with DynCorp to
complete the IPC/TNC phases by December 31, 2002, or nearly
18 months earlier than originally planned. Additionally, the status
report stated that SAIC had developed a plan to make the ACS
web-enabled by July 2002 – 24 months earlier than scheduled –
without increasing project costs.

       The FBI also informed Congress in its February 2002 report that
with an additional $70 million in FY 2002 funding, the FBI could further
accelerate the deployment of Trilogy. This acceleration would include
completing the IPC/TNC phases by July 2002 instead of December
2002, and delivering by March 2004 (four months early) the most
important analytical tools as part of the UAC phase. Congress
supplemented Trilogy’s FY 2002 budget with $78 million from the
Emergency Supplemental Appropriations Act of January 2002 to
expedite the deployment of all three components. This appropriation
increased the total funding of Trilogy from $379.8 million to $457.8
million.8




      8
         Of the $457.8 million, about $107.6 million was identified by FBI
management as funding offsets, or cost savings, from other FBI operations that
Trilogy would replace.


                                       -6-
      In December 2002, the FBI identified a need for an additional
$137.9 million to complete the Trilogy program. Congress
subsequently approved a $110.9 million reprogramming request to
help meet this need. This reprogramming was anticipated to fund
Dyncorp’s estimates to complete the IPC/TNC portions of Trilogy, as
negotiated, as well as an estimate of SAIC’s costs to complete the UAC
portion of the project. The reprogramming increased the FBI’s total
available funding for Trilogy to $568.7 million. Another $4.3 million
for operations and maintenance and $8 million for computer specialist
contractor support were added in FY 2003 for a total of $581.1 million.
According to FBI documents, by the end of January 2004 the FBI had
obligated about $559.6 million for Trilogy. The following table shows
Trilogy’s budget, by component area, as of January 2004.9




       9
         In commenting on a draft of this report, the FBI stated that the
infrastructure contractor, CSC, did not spend approximately $5.7 million and that
these funds would be returned to the FBI. The FBI also said it recently revised the
Trilogy budget and decreased total infrastructure costs by $2.8 million.


                                        -7-
                     Trilogy Budget by Component Area

                                                   January 2004 Revision
                                  Original           Based on TNC/IPC
   Component                        Plan           Contractor Proposals*
     Area              FY        ($millions)            ($millions)
                      2001             $68.0                         $65.7
                      2002             $87.8                        $171.6
                      2003             $82.8                         $98.6
                      2004           n/a                              $1.1
 TNC/IPC             Subtotal         $238.6                        $337.0
                      2001             $24.7                         $25.2
                      2002             $46.6                         $26.8
                      2003             $47.9                        $115.8
                      2004           n/a                              $2.2
 UAC                 Subtotal         $119.2                        $170.0
 Contractor
 Computer            Subtotal          n/a                                   $8.0
 Specialists
 Integrator          Subtotal          n/a                                  $5.5
                      2001                 $8.0                             $7.1
                      2002                 $8.0                             $8.2
                      2003                 $6.0                            $13.9
 Project              2004                  n/a                             $3.3
 Management          Subtotal             $22.0                            $32.5

 Management          Subtotal          n/a                                 $28.1
 Reserve
                                       $379.8                            $581.1
 Total
 * Note: totals within this category include adjustments from the beginning of the
 project through January 2004.

            Source: FBI Quarterly Congressional Status Reports

      In addition, the following table shows how the FBI’s estimates
for completing the three Trilogy components, as periodically reported
to Congress, fluctuated dramatically up until June 2004.




                                      -8-
                            Trilogy’s Development Schedule
               (According to FBI Quarterly Congressional Status Reports)a

                Original
Component      Completion        Nov       Feb         Feb       June      Sept       Apr          Feb         June
    Area         Target         2001b     2002 b,c   2002 b,c    2002b    2002b      2003 b       2004 b      2004 b
  IPC/TNC         May            Jun        Dec      Jul 2002     Mar      Mar         Dec          Oct      Complete
Completiond       2004          2003       2002                  2003     2003        2003         2003      Apr 2004
 Fast Track                                                       Apr      May      Complete     Complete    Complete
                                                                 2002     2002      Dec 2002     Dec 2002    Dec 2002
 Extended                                                         Oct      July     Complete     Complete    Complete
 Fast Track                                                      2002     2002      Mar 2003     Mar 2003    Mar 2003
  Full Site                                                       Mar      Mar         Dec          Oct      Complete
 Capability                                                      2003     2003        2003         2003      Apr 2004

   UAC              Jun           Jun     Jul 2002   Mar 2004     Jun       Jun        Jun       Unknown     Unknown
Completiond        2004          2004                            2004      2004       2004
 ACS Web                                  Jul 2002   Cancelled
Enablement
 Delivery 1                                                       Dec       Dec        Dec       Unknown     Unknown
                                                                 2003      2003       2003
 Delivery 2                                                       Jun       Jun        Jun       Unknown     Unknown
                                                                 2004      2004       2004
 Delivery 3                                                                           June       Unknown     Unknown
                                                                                      2004

Source: FBI Quarterly Congressional Status Reports

Notes: (a) This schedule does not include all of the quarterly reports submitted by the FBI, but does include those where
       significant scheduling changes took place.
       (b) Dates represent the submission date for the FBI’s Trilogy Program Quarterly Congressional Status Report.
       These reports were required by P.L. 106-553, Department of Commerce, Justice and State, the Judiciary, and
       Related Agencies Appropriations Act, 2001. The reports generally covered the quarter prior to the issuance date.
       (c) Two reports were issued in February 2002.
       (d) The schedule includes the portions of the components (e.g., Delivery 3) as they were initiated by the FBI
       during the course of the Trilogy project.
Project Management and Contractor Assistance

      In addition to the Trilogy project’s infrastructure and application
components, the original Trilogy plan included a management process
function, referred to as Program Management. Trilogy was to be
managed under a Deputy Assistant Director, dedicated solely to the
program, within the FBI’s Information Resources Division. The
Division employees who were responsible for the Trilogy program were
to have no responsibilities outside of the Trilogy project. Shortly after
the initiation of the Trilogy project, however, the FBI made
management changes, including establishing a CIO position. The CIO
brought in a Project Management Executive to manage the Trilogy
project in place of the Deputy Assistant Director in the Information
Resources Division.

      Over the course of the Trilogy project, the FBI acquired
contractor assistance to work on the project. For example, contractor
computer specialists were brought into the Trilogy project in January
2002 when the FBI tried to accelerate the Trilogy project. The
specialists, budgeted at $8 million, worked on infrastructure aspects of
the project. A project integration contract was approved through the
FBI’s $20 million reprogramming request in December 2002.10
However, the integrator, SAIC, was not brought on until the end of
2003. In an effort to limit costs, the FBI has initiated a contract
termination. As of April 2004, SAIC had received over $2.8 million for
project integration services.

Other Trilogy Contract Issues

      At the outset of FITUP/Trilogy, the Department required the FBI
to use two contractors because the project was so large. To expedite
the contracting process, the FBI decided to use the General Services
Administration’s (GSA) Millennia contracting process. The GSA’s
Federal Technologies Services’ Federal Systems Integration and
Management (FEDSIM) Center provides IT contracting services for its
federal agency clients. FEDSIM’s role is to oversee competing
contracts, and to award and manage existing contracts. In other
words, FEDSIM acts as the contracting office. FEDSIM developed

       10
           A project integrator provides the overall planning and coordination during
the implementation of a new system. The tasks an integrator performs include the
defining of requirements for system implementation, scheduling, and ensuring that
testing is performed.



                                        - 10 -
Millennia for contracts involving software engineering, system
integration, or communications. Pre-approved contractors who could
bid on an IT system contract were identified, and as a result contracts
could be awarded much more quickly than through the traditional
process where hundreds of bids might have to be evaluated. With
Millennia, 11 contractors under the auspices of FEDSIM competed for
the 2 Trilogy contracts. The Trilogy contract was offered as a cost-
plus-award fee on labor whereby the contractors’ costs are reimbursed
and fees can be awarded to the contractor. Some smaller aspects of
the contract were fixed-price. According to FEDSIM officials, a cost-
plus-award-fee contract is not unusual for developing a system where
there are many unknowns and risks, and the contract allows for
sharing the risk between the contractor and the contracting agency.

       The Department also initially required that the FBI perform the
project integration function rather than hiring a contractor. A project
integrator manages how each piece of the project will fit together
smoothly. Because the Trilogy project included hardware, networking,
and user application components, the integrator would determine
when the equipment associated with the hardware and networking
portions would be ready for the user applications to be installed and
utilized. However, the FBI did not have sufficient project integration
expertise, especially for such a large and complicated IT project.

      Although an outside project integrator was not hired at this time,
the FBI used a contractor, Mitretek Systems, to assist the FBI with a
wide array of tasks, including program and contract management,
system engineering and architecture, fiscal and budgetary oversight,
communications, testing, configuration management, cost estimating,
acquisition and source selection, requirements definition, training,
database management, security certification and accreditation, and
web development.




                                 - 11 -
              FINDINGS AND RECOMMENDATIONS

Finding: The Schedule, Cost, Technical, and Performance
         Baselines of the Trilogy Project

     While Trilogy has greatly improved the FBI’s information
     technology infrastructure, the critical VCF application
     remains incomplete and will not result in the required
     modernization of the FBI’s case management system in
     the foreseeable future. The FBI plans to pilot test a
     prototype VCF by early 2005, but this test and subsequent
     evaluation will only involve workflow processes in
     conjunction with the existing ACS system, rather than a
     fully functional case management system. On a separate
     track, the FBI is leading an interagency effort to develop a
     Federal Investigative Case Management System (FICMS)
     framework, which is intended to lead to the development
     of fully functional investigative case management systems
     for the Departments of Justice and Homeland Security.
     However, the FBI will not have schedule and cost
     estimates for FICMS and the resulting case management
     system until April 2005 at the earliest, when it awards the
     FICMS contract. While the completed infrastructure
     components of Trilogy have provided the FBI with a sorely
     needed IT upgrade, the continuing lack of an effective case
     management system hinders the FBI’s capability to
     perform its critical national security mission.

     Additionally, the Trilogy project has been plagued
     throughout its development with missed deadlines and
     rising costs. While events affecting both the mission and
     operations of the FBI resulted in project modifications, had
     the Trilogy contracts included fully established
     requirements and firm completion milestones, the adverse
     effects of such changes could have been mitigated.
     Recently, the FBI has restructured and tightened its IT
     management and now intends to more rigorously manage
     its pursuit of a new solution to its case management
     requirements.




                                - 12 -
Need for Trilogy

       Both the FBI’s IT infrastructure and its case management system
were in dire need of modernization at the time of Trilogy’s initiation.
Both aspects of the project are extremely important and interrelated —
without the upgraded infrastructure a modern, fully functional case
management system with information-sharing capabilities could not be
implemented. At the same time, without an effective case
management system the FBI cannot identify and capitalize on all of
the information in its possession. With the completion of Trilogy’s
infrastructure components, the FBI has the ability to support an
enhanced case management system. However, without a modern,
fully functional case management system in place, agents and analysts
largely rely on paper case files and an existing but obsolete case
support system. Consequently, agents and analysts are at a severe
disadvantage in performing their duties.

Infrastructure Components

       In April 2004, the FBI completed the infrastructure components
of Trilogy. However, although Congress funded an accelerated
schedule for completing these components, the FBI only met the
original target date. As described in the Introduction section of this
report, for much of the Trilogy project’s history the FBI had never
established a stable schedule for development and deployment of the
infrastructure components. Beginning in 2002, the FBI’s estimated
dates for completing the infrastructure began to fluctuate and were
revised repeatedly. At one point, the FBI moved up the target
completion date for deploying the Trilogy infrastructure from May 2004
to June 2003 in light of the September 11 attacks and the need to
enhance the FBI’s IT infrastructure as rapidly as possible.
Subsequently, the FBI said the infrastructure deployment would be
completed by December 2002. After receiving additional funding from
Congress in FY 2002 to accelerate the project, the FBI again revised
the completion date for the infrastructure to July 2002.

       The plan to accelerate Trilogy involved deploying the IPC/TNC
infrastructure enhancements in three phases. The first phase, called
Fast Track, included the installation of Trilogy hardware in FBI field
offices and the larger resident agencies. The Fast Track deployment
consisted of new network printers, color scanners, local area network
upgrades, desktop workstations, and office automation software. FBI
officials reported that by the end of December 2002, all field offices


                                - 13 -
had Fast Track completed. This included 22,251 workstations, 3,408
printers, 1,463 scanners, and 475 servers.

       Following the completion of Fast Track, the FBI initiated the next
phase of the hardware deployment, Extended Fast Track. Completed
in March 2003, Extended Fast Track: 1) installed servers and other
network components at field office and resident agency sites, and
2) deployed the hardware included under Fast Track to additional
resident agency sites that were not included in the first phase. The
FBI also intended Extended Fast Track to correct any shortfalls in the
distribution of hardware to the field offices that occurred in the original
Fast Track deployment. During this phase, the FBI also deployed a
wide area network (WAN) for 593 FBI sites. The WAN was certified
and accredited to meet the security requirements for operating within
the FBI.

       The final phase of the infrastructure deployment, called
Full Site Capability, represented the complete infrastructure upgrade.
This phase provided WAN connectivity together with new encryption
devices, new operating systems and servers, and new and improved
e-mail capability. However, completion of this phase involved
extensive contract renegotiations with Computer Sciences Corporation
(CSC), into which DynCorp had merged, and increased efforts on the
FBI’s part to manage the project and encourage CSC to complete the
Full Site Capability. The final year of the infrastructure component’s
evolution is discussed below.

      The milestone for completing the infrastructure components
slipped from the initial date of July 2002 to March 2003. On March 28,
2003, CSC completed the Local Area Network (LAN) for Trilogy. In
March 2003, the FBI Director reported to Congress that the Trilogy
LAN — with increased bandwidth and three layers of security — had
been deployed to 622 sites.

      In April 2003, the FBI and CSC agreed to a statement of work
for the remaining infrastructure components of Trilogy, including
servers, upgraded software, e-mail capability, and other computer
hardware, with final engineering change proposals and a completion
date of October 31, 2003. In August 2003, CSC informed the FBI that
the October 2003 completion date would slip another two months to
December 2003. In October 2003, CSC and the FBI agreed that the
December 2003 date again would slip. In November 2003, the GSA’s
FEDSIM announced that CSC failed to meet the deadline for


                                  - 14 -
completing work on the infrastructure portions of Trilogy that are
required to support the user applications, including the VCF.

      On December 4, 2003, CSC signed a commitment letter agreeing
to complete the infrastructure portions of Trilogy by April 30, 2004, for
an additional $22.9 million, including an award fee of over $4 million.11
The FBI covered these additional costs by reprogramming funds from
other FBI appropriations. In January 2004, the FBI converted the
agreement with CSC to a revised statement of work providing for loss
of the award fee if CSC did not meet the April 30, 2004, deadline. In
addition, the revised statement of work provided for a cost-sharing
rate of 50 percent if any work remained after April 30.

       In April 2004, CSC installed the final infrastructure pieces in FBI
field offices needed to use the previously deployed WAN, thereby
completing the infrastructure portion of the project and meeting its
contractual requirements. In the end, CSC completed the
infrastructure component by May 2004 – the FBI’s original target
date – but missed the completion date under the accelerated schedule
funded by Congress by some 22 months. The total expected costs for
the infrastructure components of Trilogy increased from $238.6 million
to $339.8 million over the course of the project.

User Applications and the Virtual Case File

       The design of and schedule for the UAC portion of Trilogy were
substantially modified after the September 11 attacks. The most
significant design change was eliminating the web-enablement of ACS
and instead developing an enterprise-wide solution to replace ACS, an
obsolete and inconsistently utilized case information system. The
replacement for the web-enablement of ACS was to be deployed in two
phases under an accelerated plan: delivery one and delivery two. A
third delivery was added in March 2003.

      Delivery one of the UAC was intended to consist of a new
application known as the Virtual Case File (VCF). The VCF was
intended to be a completely new investigative case management
system with data migrated from the ACS. The VCF was to serve as the
backbone of the FBI’s information systems, replacing the FBI’s paper
case files with electronic files. The first delivery of VCF was targeted

       11
         An award fee is a financial incentive provided to a contractor, based on the
contractor’s performance, as a form of motivation to meet directed baselines.


                                       - 15 -
for completion in December 2003. The second and third deliveries,
which were intended to upgrade and add additional investigative
applications to the VCF, were targeted for completion in June 2004.

      At the outset of the Trilogy project, the UAC was intended to
replace each of the following five primary user applications:

     •    ACS, the FBI’s primary investigative application;

     •    IntelPlus, which allows scanning, importing of electronic
          documents, and full-text retrieval capabilities;

     •    the Criminal Law Enforcement Application (CLEA), a repository
          of criminal investigation data;

     •    the Integrated Intelligence Information Application (IIIA),
          which supports counterintelligence and counterterrorism
          investigations by enabling the collection, collation, analysis,
          and dissemination of intelligence; and

     •    the Telephone Application (TA), which provides a central
          repository for telephone data obtained from investigations.

      According to one VCF project manager, the plan to replace each
of the FBI’s five primary investigative applications was not based on an
objective evaluation of the operational needs of the organization, but
rather on an assumption made by the FBI’s IT managers at the time
that replacing these applications would have the greatest benefit for
agents and analysts.12 The FBI refined the VCF concept through Joint
Application Development (JAD) sessions held between January and
June 2002. The JAD sessions brought together FBI representatives to
determine what applications were needed to support the case
management and information requirements of FBI agents, analysts,
and support personnel; UAC contractor representatives to determine
what applications could be created; and infrastructure contractor
representatives to ensure that the applications could be supported by
the groundwork that was being developed.


         12
         In commenting on a draft of this report, the FBI stated that the five
primary applications were selected because they were the applications used most
frequently by agents in support of investigative activities and that this was a
reasonable set of applications to pursue given the original approach of “webifying”
the ACS.


                                       - 16 -
      The VCF plan that resulted from these JAD sessions in 2002
rejected the previous plan to replace the five separate investigative
applications in favor of developing an entirely new electronic workflow
with systems that are integrated into one process. The VCF concept
not only would change where the data for case files is stored, but also
would create an entirely new environment in which agents, analysts,
and support personnel operate. This workflow would be based on the
information required to create case files and would combine aspects of
ACS, CLEA, and TA applications into one application. After these
sessions, the FBI removed IntelPlus from the planned VCF to avoid
redundancy with the current version of the Information Data
Warehouse (IDW) project and the revamped VCF.13

       Implementation of the VCF would require a complete change in
how agents establish case files. Rather than creating paper records as
they currently do, agents would be required to input case information
into the VCF electronically to complete a series of data fields. The
data fields would be tagged so that the information entered into the
VCF is consistent throughout the system. These electronic “case files”
would be the sole case files utilized by the FBI, so that only one set of
data would exist for a case and only one search within the VCF would
be required to locate and view case-related information.

        VCF case files would enable a wide variety of functionalities. For
example, when a “parent” case file is established by one FBI field
office and an action relating to that case is taken by another field
office (such as a fraud case in New York requiring a summons being
delivered in Philadelphia), a “child” to the original case file can
document all of the activities related to the parent case. This
capability would allow the entire case history to be traceable from
initiation through closure.

       In addition, the VCF was intended to include a multimedia
capability that would rectify a longstanding information-sharing
limitation within the FBI. Agents would be able to scan documents,
photographs, and other electronic media into the case file. This
capability would allow evidence and other case-related information to

       13
          However, while the IIIA application’s functionality was to be captured
within the VCF, the migration of the IIIA data may not be a part of the VCF because,
according to one VCF project manager, agents utilized the system inconsistently and
the data within the application may not be complete. The FBI told us it is reviewing
the IIIA data to determine if it will be captured in the ACS data migration to the VCF.



                                        - 17 -
be shared among agents working on a case FBI-wide without the need
to exchange physical copies of the information. Also, under the case
structure established in the first delivery of the VCF, the Reports on
Investigative Activity (RIA) component of a case eventually would
allow data comparisons and correlations to be made between cases in
order to “connect the dots.”14

      According to a former VCF project manager at the FBI, the VCF
would also incorporate additional applications to aid agents’ work. For
example, because ACS does not offer statistical reporting capabilities,
agents have had to perform such tasks using a separate application
outside of ACS. The VCF would incorporate the features of the
Integrated Statistical Reporting and Analysis Application, which
maintains case-related statistics such as the number of investigative
leads that result in arrests and convictions. The VCF also would allow
agents to request funding for cases rather than to have to enter
requests through a separate financial management system.

       Current Schedule for User Applications Component

      The VCF contractor, SAIC, delivered the first of three planned
system deliveries for the VCF in December 2003. However, the
application was not fully functional and the FBI did not accept the
product. FBI officials stated that 17 issues of concern pertaining to the
functionality and basic design requirements of the VCF needed to be
resolved before the application could be deployed. According to FBI
personnel working on the resolution of these problems, the 17 issues
were corrected as of March 7, 2004.

      However, significant work still remained on the VCF, including
security aspects and records management issues. As a result, the FBI
revised the VCF deployment schedule again. Rather than having the
VCF implemented and enhanced in three deliveries, the FBI Director
announced in June 2004 that development of the project would be split
into two parallel tracks, “Initial Operational Capability” (IOC) and “Full
Operational Capability” (FOC). Neither Track One, the IOC, nor Track
Two, the FOC, will result in the deployment of a fully functional VCF
with case management capabilities. As discussed in more detail
below, the two tracks will test a limited VCF paperwork flow feature

       14
         The RIA component consists of current data collected within a file whenever
an agent performs investigative work on a lead or case. The data within the RIA
would be entered into the VCF within established data fields. An enhancement to the
VCF would allow for the data to be compared to other leads or case files.


                                      - 18 -
and continue to identify and refine user requirements that the FBI
believes will eventually lead to the development of a new case
management system through the Federal Investigative Case
Management System (FICMS) effort to replace the stalled VCF project.

       On July 30, 2004, the FBI signed a contract modification with
SAIC to work on Track One. By December 31, 2004, SAIC provided
the FBI a “proof-of-concept” or prototype VCF. This prototype is being
used by agents and analysts in a test field office to demonstrate an
electronic workflow process in ongoing investigations. Over a 6-week
pilot test period scheduled between January and March 2005, the FBI’s
New Orleans Field Office and the Baton Rouge Resident Agency are
entering actual investigative lead and case data into the VCF. This
information will be uploaded into the ACS to create paper case files
upon electronic approval of the electronic information in the VCF.

      Yet, the version of the VCF tested in Track One will not provide
the FBI its goal of a paperless records management application or a
system that will handle the vital investigative leads, evidence, and
case management application. Rather, the goal of the Track One test
phase is to determine the efficiency and effectiveness of the electronic
workflow and document approval process — even while still using the
antiquated ACS system. Due to its limited progress in developing the
VCF, the FBI has determined that SAIC will not provide the previously
planned second and third deliveries. These enhancements were
intended to upgrade the VCF’s capabilities and provide a deployable
VCF that would enable the FBI to efficiently manage its investigative
cases and documents and allow agents and analysts to access and
share investigative information much more effectively.

       Track Two, the FOC, also will not result in the delivery of a fully
functional VCF. Instead, Track Two represents an effort to reevaluate
and identify new requirements for developing a functional case
management system to replace the ACS. Under Track Two, the FBI is
identifying requirements for a new system, including user activities
and processes for creating and approving documents and managing
investigative leads, evidence, and cases. As a part of Track Two, a
separate contractor, The Aerospace Corporation, evaluated the initial
VCF delivery to determine the extent to which the design can be of
further use to the FBI.




                                  - 19 -
      In essence, under Track Two, the FBI will update system
requirements for the future development of a case management
system.15

       The VCF effort that began in June 2001 has been unable to meet
the FBI’s case management needs. Instead, the FBI has taken a new
approach for pursuing the development of a case management
system. On September 14, 2004, the Departments of Justice and
Homeland Security, in conjunction with the Office of Management and
Budget, released a Request For Information for the FICMS (see
Appendix 3). The FICMS is intended to result in a common platform in
support of a multi-phased program to modernize investigative and
intelligence processes within the federal government as a whole. On
September 28, 2004, the Departments of Justice and Homeland
Security — with the FBI acting as the executive agent — presented an
overview of the FICMS to vendors in order to obtain information on
existing or potential solutions for this multi-agency case management
system.16 Nearly 100 vendors, including SAIC, attended the FBI’s
presentation, which included a discussion of the challenges facing the
FBI in implementing the VCF, as well as the requirements that have
been identified in working on the VCF. The requirements include
creating and managing electronic case files; assigning cases;
integrating workflow and document management including the
creation, review, collaboration, approval, storage and disposition of
documents; evidence management; and records search and reporting.
The FICMS overview also outlined security measures and labeling
requirements for national security information.

     The FBI told the OIG that it anticipates issuing a Request for
Proposals by about January 2005 and awarding a contract by April 30,
2005, to develop the FICMS framework through a step-by-step
modular approach. The FBI hopes that through this approach the

       15
          In commenting on a draft of this report, the FBI stated that Track Two is in
essence the FICMS effort that is expected to eventually result in a fully functional
investigative case management system.
       16
          The FBI’s CIO stated that the FBI’s involvement in FICMS stems from both
the Office of Management and Budget and Executive Order 13356 entitled
Strengthening the Sharing of Terrorism Information to Protect Americans, signed on
August 27, 2004 (see Appendix 4). The Executive Order provides guidance to
organizations that possess or acquire terrorism information on issues relating to the
sharing of such information among agencies. Part of the guidance is to establish an
interoperable terrorism information sharing environment to facilitate automated
sharing of terrorism information among appropriate agencies.


                                       - 20 -
project will be broken down into manageable components such as
workflow, security, records management, evidence management,
investigative leads management, and administration. Further, the
system architecture will be developed to comply with the information-
sharing requirements of Executive Order 13356.

      However, until the FICMS framework is developed and an
investigative case management system is developed and deployed, the
FBI will continue to use the poorly functioning ACS to manage its
cases. The FBI is unable to provide even a rough estimate of the
schedule or costs for developing the FICMS framework and resulting
system until it receives and evaluates the contractors’ proposals. In
the meantime, FBI personnel will continue to use paper files and the
limited capabilities of the antiquated ACS. Although the FBI
emphasized that it has scanned a multitude of documents into its data
warehouse, this document repository does not equate to the case
management and information-sharing and searching capabilities
envisioned for the VCF.

     The Current VCF Application Will Not Meet the FBI’s Needs

       After committing over three years and $170 million — nearly $51
million more than initially estimated — the FBI thus far has not
completed the original UAC portion of Trilogy, the critical VCF.

       The urgent need within the FBI to create, organize, share, and
analyze investigative leads and case files on an ongoing basis remains
unmet. As of December 31, 2004, the VCF will only result in a test
version of a new workflow system involving the capability to upload of
documents into the ACS system. From that point, the FBI is further
refining the user needs and more fully developing requirements for a
future investigative case management system. The FBI is now
counting on the interagency FICMS effort to eventually result in
a modern case management system primarily using off-the-shelf
technology that was unavailable in 2001 when Trilogy’s development
began.

      According to the FBI’s CIO, about 80 percent of the FBI’s case
management system requirements are consistent with other federal
investigative agencies, so that a “flagship” platform such as that
envisioned through FICMS is feasible. Further, the FBI CIO said that
using existing IT solutions in developing a case management system
under FICMS (commercial off-the-shelf systems or government off-


                                - 21 -
the-shelf systems) should reduce its costs that will be shared by the
participating agencies. The FBI expects to pay its share of FICMS
developmental costs by reprogramming some of its IT appropriations.
The extent to which the VCF development effort to date can be
leveraged in developing an interagency case management platform is
unknown at this point, because the FICMS is in its early conceptual
stage. In our opinion, although the VCF effort helped the FBI define
its user requirements, a successor case management system is
unlikely to benefit substantially from the VCF from a technical or
engineering standpoint due to: 1) advances in technology during the
lengthy VCF developmental process, and 2) the FBI’s intended
approach of adapting existing systems to provide the various
components of the case management system.

       Although the development of an interagency investigative case
management system is desirable to enable information to be shared
across agencies, Trilogy was supposed to provide case management
and information-sharing capabilities for the FBI. While the FBI is
looking toward developing a system through the FICMS effort to
ultimately replace the largely unsuccessful VCF, the ability of the FBI
to adequately compile, analyze, and share case information within its
own organization will be delayed as the FICMS framework and
resulting system are developed.

Problems in Trilogy’s Development

      We found that the delays and associated cost increases in the
Trilogy project have resulted from several factors, including:

      •   poorly defined and evolving design requirements,

      •   contracting weaknesses,

      •   IT investment management weaknesses,

      •   lack of an Enterprise Architecture,

      •   lack of management continuity and oversight,

      •   unrealistic scheduling of tasks,




                                  - 22 -
       •    lack of adequate project integration, and

       •    inadequate resolution of issues raised in reports on Trilogy.

       The combination of these factors has resulted in a Trilogy
project that received significant additional funding to accelerate
completion, but that after three years has not been fully implemented.
It now appears that the multi-agency FICMS effort, which currently is
purely conceptual, will result in a replacement of the existing
inadequate VCF as the FBI’s solution to meet its need for an
investigative case management system. A discussion of the reasons
for Trilogy’s schedule, cost, technical, and performance problems
follows.

       Poorly Defined and Slowly Evolving Design Requirements

      One of the most significant problems with managing the
schedule, cost, and technical aspects of the Trilogy project was the
lack of a firm understanding of the design requirements by both the
FBI and the contractors. Trilogy’s design requirements were ill-defined
and evolving as the project progressed. In addition, certain events
required the need to modify initial design concepts. For example, after
the September 11 attacks the FBI recognized that the initial concept of
simply modifying the old ACS would not serve the FBI well over the
long run. The FBI then created plans for the VCF. Additionally, a need
for broadened security requirements due to vulnerabilities identified in
the Hanssen espionage case affected Trilogy’s development.
According to one project manager, this recognition of the need to
upgrade security caused more problems and delays for the full
implementation of the infrastructure component.17

      During the initial years of the project, the FBI had no firm design
baseline or roadmap for Trilogy. According to one FBI Trilogy project
manager, Trilogy’s scope grew by about 80 percent since initiation of
the project. Such large changes in the requirements meant that the
specific detailed guidance for the project was not established, and as a
result a final cost and schedule was not established. The project
manager stated that for future projects, requirements must be defined

       17
           In commenting on a draft of this report, however, the FBI disputed the
project manager’s explanation, saying that security requirements were initially
identified within the base contract. Instead, the FBI cited the addition of a new
e-mail function as the primary reason for the schedule delays along with the
implementation of a product assurance program.


                                       - 23 -
in specific detail, and all parties involved in such a project must be
onboard with the requirements.

      Another problem in managing Trilogy was the limited
engineering capabilities of the FBI and the contractor in creating the
VCF. In January 2004, the acting Chief Technology Officer brought in
a group of engineering contractors to review technical and
performance aspects of the VCF. This review examined the technical
design decisions, reliability, performance, and resiliency of the system
being developed by the contractor. The main objective of the group
was to identify fundamental design flaws. The group’s decision paper
cited 37 basic design flaws, including network, server, and storage
infrastructure issues, operating system and software issues,
application issues, and problems with the test plan. The lack of
redundancy and resiliency in the system was seen as a major flaw
because the design failed the basic “can of soda” test. This test simply
shows that if a can of soda were to be spilled on one of the servers,
causing it to fail, that server’s backup would also fail because it was
located directly below and would also be damaged by the liquid.

      The contractors performing the review stated that the VCF
design was adversely affected by a lack of engineering expertise on
the project. The group said that the FBI should have approached
developing the Trilogy system from an engineering perspective rather
than just by relying on what the system should achieve for the user.
According to the contractors, this approach should have been
implemented from the outset of the project so that the FBI could have
acted as an educated consumer, directing more of what the contractor
should have been implementing in the technical development of the
VCF rather than just from a user perspective.

       The current status of the VCF demonstrates that the lack of fully
developed requirements for the project negatively affected schedule,
cost, technical, and performance baselines. At this point in the
project’s development, a limited-use application that will continue to
create paper files is the most optimistic outcome of the current Trilogy
user application contract. However, the technical and performance
requirements for the future inter-agency case management system are
yet to be fully defined.




                                  - 24 -
       Contracting Weaknesses

      The FBI’s current and former CIOs told us that a primary reason
for the schedule and cost problems associated with Trilogy was weak
statements of work in the contracts. According to FBI IT and contract
managers, the cost-plus-award-fee type of contract used for Trilogy:

       •    did not require specific completion milestones,

       •    did not include critical decision review points, and

       •    did not provide for penalties if the milestones were not met.

      Under cost-plus-award-fee contracts, contractors are only
required to make their best effort to complete the project.
Furthermore, if the FBI does not provide reimbursement for the
contractors’ costs, under these agreements the contractors can cease
work. Consequently, in the view of the FBI managers with whom we
spoke, the FBI was largely at the mercy of the contractors. A Trilogy
project manager compiling lessons learned from the project told us
that the FBI should require all future IT projects to operate solely with
fixed-price contracts that contain award fees.18 He stated that this
type of contract would greatly enable the FBI to achieve the results
being sought without relying too heavily on contractors. However, in
order to use such contracts, the manager noted, the FBI must have
much more fully defined requirements for a project.

      Because the FBI wanted to award the Trilogy contracts quickly
and did not have clearly defined requirements, it used the cost-plus-
award-fee contract vehicle. While the contracting process was
expedited, the lack of well-defined requirements severely affected the
timeliness and cost of the implementation of the Trilogy project.

       IT Investment Management Weaknesses

      At Trilogy’s inception and over much of its life, the FBI’s IT
Investment Management (ITIM) process was not well-developed, as
described in the OIG’s December 2002 audit report, The Federal
Bureau of Investigation’s Management of Information Technology


       18
         An award fee is a financial incentive provided to a contractor, based on the
contractor’s performance, as a form of motivation to meet directed baselines.



                                       - 25 -
Investments. That audit found that while the FBI had started
centralizing its project management structure, it still needed to
integrate its ITIM process with a standardized project management
methodology. Specifically, the report stated that project management
was not consistently followed by IT project managers and policies and
procedures were not developed for management oversight of IT
projects. This lack of oversight included a lack of project management
plans that would include cost and schedule controls.

      The report included a brief case study of Trilogy, and the lack of
a mature ITIM process was found to contribute to the missed
milestones and uncertainties associated with Trilogy. The report
stated that most of Trilogy’s development had been managed in a
“stovepipe,” and as a result FBI personnel not involved in the
management of Trilogy had little knowledge of the project’s status and
progress. Additionally, there was little coordination among Trilogy
management and contract specialists from the Finance Division or the
Information Resources Division unit responsible for procurement of
non-Trilogy IT needs. Finally, the philosophy employed in
implementing Trilogy, according to the original FITUP plan, was “to get
80% of what is needed into the field now rather than 97% later. Then
we can proceed in an orderly fashion to move toward 100% in the
future.” In essence, the FBI took risks to expedite Trilogy’s
implementation to the field, and that approach failed because the
management processes requiring the creation of baselines for Trilogy
were simply not in place.

       Had the FBI developed a mature ITIM process — and the
schedule, cost, technical, and performance baselines for the project
been fully developed through the ITIM process — the Trilogy project
likely could have been completed more efficiently and timely. The
development of a mature ITIM process is ongoing within the FBI, and
most of the recommendations of the OIG’s report on this subject have
been implemented. However, absent a mature ITIM process, all FBI IT
investment efforts are at a risk for the significant developmental
problems experienced by Trilogy.

      Lack of an Enterprise Architecture

      An Enterprise Architecture provides an organization with a
blueprint to more effectively manage its current and future IT
infrastructure and applications. As stated in the Government



                                 - 26 -
Accountability Office’s (GAO) report Information Technology: FBI
Needs an Enterprise Architecture to Guide Its Modernization Activities,
issued in September 2003, the development, maintenance, and
implementation of Enterprise Architectures are recognized hallmarks of
successful public and private organizations. The GAO reported that
the FBI does not have an Enterprise Architecture, although it began
developing one in early 2000. The GAO also found that the FBI lacks
the management structures and processes to effectively develop,
maintain, and implement an Enterprise Architecture.

       Additionally, the OIG’s December 2002 audit report entitled FBI’s
Management of Information Technology Investments recommended
that the FBI continue its efforts to establish a comprehensive
Enterprise Architecture. The report also recommended that the FBI
develop and implement a specific plan to integrate the ITIM and
Enterprise Architecture processes. While the FBI agreed to develop a
comprehensive Enterprise Architecture, this recommendation has not
been fully implemented. The FBI has contracted for an Enterprise
Architecture to be completed by September 2005. Without a complete
Enterprise Architecture, the FBI’s systems are not defined. As a result,
in the Trilogy project the FBI needed to conduct reverse engineering to
identify existing IT capabilities before developing the infrastructure
and user applications requirements.

      Lack of Management Continuity and Oversight

       Turnover in key positions has inhibited the FBI’s ability to
manage and oversee the Trilogy project. Since November 2001, 15
different key IT managers have been involved with the Trilogy project,
including 5 CIOs or Acting CIOs and 10 individuals serving as project
managers for various aspects of Trilogy. This lack of continuity among
IT managers contributed to the lack of effective and timely
implementation of the Trilogy project.

      According to contractor personnel who are advising the FBI on
Trilogy, the FBI has suffered from a lack of engineering expertise,
process weaknesses, and decision making by committees instead of
knowledgeable individuals. In the opinion of the contractors with
whom we spoke, weak government contract management was more of
the problem with Trilogy than the terms of the contracts.




                                 - 27 -
       In addition to the lack of consistent management, the processes
used to manage Trilogy were also inadequate. For example, the FBI’s
ability to adequately track Trilogy costs was questioned by a March 3,
2004, FBI inspection report. The inspection review was conducted to
ensure that transactions for the Trilogy project were documented and
recorded accurately, and to determine whether the financial
management of the Trilogy project was in compliance with federal
regulations and FBI policies and procedures.

      The inspectors found that the FBI’s Financial Management
System did not capture detailed Trilogy-related expenditures, while
numerous entities tracked and monitored specific segments of the
operation. Overall, Trilogy-related financial records were fragmented
and decentralized with no single point of accountability. The FBI’s
Project Management Office did not implement a centralized budget,
accounting, and procurement structure to ensure global financial
management oversight.

      The report also found that an individual functioning in an
advisory role to the FBI for increasing funding of the various contracts
associated with Trilogy worked for a contractor that provided IT
services on Trilogy. As a result, the inspectors found a conflict of
interest in decision-making regarding the Trilogy project. Additionally,
although the contractor maintained detailed records for vendor
invoicing as part of her bookkeeping duties, she did not have access to
overall FBI financial data and therefore was unable to provide the FBI
with a complete picture of Trilogy costs.

      Finally, the FBI internal report stated that the Budget Unit of the
FBI’s Information Resources Division was not reconciling or updating
portions of the Trilogy tracking report, which resulted in discrepancies
in the dollar amounts reported to management. During the review,
the inspectors gave the information to the Budget Unit in order to
coordinate a reconciliation of the Trilogy project’s funding.

      The FBI said it has resolved these issues, but the cost-reporting
problems that occurred demonstrate another area in which a thorough,
regimented program management framework would have allowed the
FBI to better capture and monitor expenditures and funding for the
Trilogy project.

     We interviewed officials in the FBI, the Department, and
FEDSIM, many of whom said that the FBI recently has improved its


                                 - 28 -
management and oversight of Trilogy and of IT in general. The FBI
appears to have hired capable IT managers from other federal
agencies and private industry, including the current CIO and several
key project management personnel. Officials within both the
Department and the FBI are optimistic that the FBI’s current IT
management team has the talent to solve the FBI’s seemingly
intractable IT problems. That said, we believe it is essential for the
FBI to maintain continuity in its management of Trilogy.

       Unrealistic Scheduling of Tasks

       Along with the lack of firm milestones in the Trilogy contracts,
the scheduled completion dates for individual project components were
unrealistic. According to an FBI official monitoring the development of
the Trilogy infrastructure, CSC had problems producing an appropriate
resource-driven work schedule. Until the FBI became more active in
examining the scheduling of the project, the FBI accepted the project’s
schedules as presented by the contractor. This acceptance began to
shift when the FBI’s scheduler worked with the contractor to establish
a realistic resource-driven work schedule for completing the
infrastructure components. At that point, the contractor disagreed
with the resulting schedules, because the schedules showed that the
full implementation of the project exceeded the proposed completion
date of the project. According to the FBI official, the schedule showed
a completion date in 2004, not the more optimistic October 2003 date
that the contractor desired. When it became apparent that the
infrastructure would not be implemented in October 2003, contract
renegotiations established a more realistic completion date of April 30,
2004. The infrastructure components were completed in April 2004 in
accordance with the revised schedule.

      According to the FBI’s Project Management Office scheduler, the
contractor for the User Applications Component (UAC), SAIC, used a
scheduling tool for the development of the VCF with which the FBI was
unfamiliar. As a result, the FBI was unable to determine if the
assumptions within the schedule were reasonable and whether the
implications on the schedule were adequately reflected. Thus, the FBI
was unable to validate the contractor’s schedule for completing the
project.19


       19
         In commenting on a draft of this report, the FBI agreed that it was
unfamiliar with SAIC’s scheduling tool but said it was still able to validate and
analyze the schedule and use that information in managing the project.


                                         - 29 -
       In our view, unrealistic scheduling of project tasks led to a series
of raised expectations, followed by frustration when the completion
estimates were missed. Additionally, the FBI’s lack of familiarity with
the contractor’s scheduling system for the UAC may have limited the
FBI’s ability to quickly recognize the extent of schedule slippages and
take steps to mitigate them. Standardizing the scheduling process
among contractors would facilitate the FBI’s ability to recognize
potential problems with project milestone dates.

      Lack of Adequate Project Integration

       Despite the use of two contractors to provide three major project
components, the FBI did not hire a professional project integrator to
manage contractor interfaces and take responsibility for the overall
integrity of the final product until the end of 2003. According to FBI IT
managers, FBI officials performed the project integrator function even
though they had no experience performing such a role. Although FBI
and Department officials stated that the Department required the FBI
to perform project integration duties without contractor support, the
expertise to adequately perform this function did not exist within the
FBI. The problems involved with the scheduling of the project would
have been more apparent to the FBI had proper project integration
efforts taken place. A professional project integrator could have
coordinated the scheduling of the infrastructure with the VCF
implementation. Any delays in completing the infrastructure
component would have pushed back the full implementation of the
VCF, and project costs could rise. Yet the FBI was not fully aware that
the infrastructure would not meet its target date until August 2003.
Additionally, until December 2003, the FBI was unaware that
significant changes to the VCF were needed to achieve the desired
performance.

       If monitoring the scheduling of the project had been a priority,
the FBI could have taken more timely action to effectively address
Trilogy’s problems. At the end of 2003 — well over two years into the
project — the FBI hired a contractor to perform these project
integration duties when it became apparent that a professional project
integrator was needed to effectively complete the project. According
to the Quarterly Congressional Report on Trilogy for the period ending
April 30, 2004, the FBI has initiated a termination of the integrator’s
contract due to cost considerations. As of the reporting period, the
integrator had received over $2.8 million.



                                  - 30 -
      Inadequate Resolution of Issues Raised in Reports

      The FBI’s management of its IT, including the Trilogy project,
was the focus of several reports issued both by components within the
FBI and external reviewing entities, including the OIG. These reports
are summarized in Appendix 2 of this report. The following discussion
of the internal reports covering Trilogy demonstrates that the FBI took
inadequate actions to resolve the findings of the reports. Because of
the lack of resolution, many of these issues have remained throughout
the course of the project.

      Within a matter of months after the initiation of the Trilogy
project, the FBI recognized significant issues that needed resolution.
The internal reports issued by the FBI’s Inspection Division, CJIS
Division, and consultants identified a lack of a single project manager,
undocumented requirements, and a baseline that was not frozen. The
CJIS Division’s assessment concluded that:

      The predominant area of concern for the Trilogy program
      appears to be an overall lack of consistency. From
      baselines to technical direction, from clear lines of
      authority to a single accountable program manager, the
      message is clear – without consistency, it is increasingly
      difficult to apply standard contract analysis tools and
      methodologies to gain helpful insight into contract status
      and progresses.

Additionally, the report stated that “until requirements are
documented and a baseline is established, it is difficult at best to
effectively gauge the many aspects of project management that should
be in place on a program of this maturity.”

       Based on its own reports, the FBI was aware of the risks that
faced the Trilogy project. While FBI management eventually hired a
project manager to oversee the project — a recommendation made in
all of the reports — the process of defining requirements and baselines
for the VCF continues, more than two years after these internal reports
were issued. Although the Hanssen espionage case and the difficulties
experienced in retrieving documents for the Oklahoma City bombing
case (events that occurred after these reports were released) resulted
in additional security and information-sharing requirements, the
difficulties of incorporating the changes would have been greatly



                                 - 31 -
minimized had the FBI established project requirements and baselines
in advance.

The FBI’s Current and Future IT Needs

      As discussed in the Background section of this report, the FBI’s
IT was severely outdated by the time the Trilogy project was initiated
in 2001.

       In the current CIO’s vision, the counterterrorism mission of the
FBI is supported by three functions that must revolve around IT:
1) data collection, 2) data analysis and investigation, and
3) dissemination of information. IT, as the current CIO sees it, is the
enabler that will allow agents and analysts to perform these three
functions, and Trilogy specifically was intended to provide a solid
framework in performing those functions. However, because the VCF
is incomplete, that framework has only been enhanced in two ways.

      First, the IPC portion of Trilogy has placed more modern
equipment on the desk of every agent and analyst, when previously
agents and analysts had to share computers that in some cases were
8 to 12 years old. The IPC modernization process allows agents to
access FBI systems immediately. Additionally, the new computers
include a standardized set of applications for e-mail, word processing,
databases, and spreadsheets. As a result, the ability for information
sharing among agents, analysts, and other support personnel is
enhanced because all employees are working within the same formats
and structures.

      Second, the connectivity of the Trilogy network provides
electronic communications capability and access to investigative and
administrative information. While the FBI’s previous system did not
allow for data to be transferred among agents and analysts, the new
system allows for sharing large files, such as photographs.
Additionally, the modernized system allows for better encryption of the
data transmitted among FBI staff, as well as better storage of the
information.

       The FBI believes that the system resulting from the FICMS effort
will replace the limited and antiquated ACS system. The ACS data
management system has not been fully utilized by agents in
performing their casework. Consequently, the data contained in the
system does not necessarily represent all of the information for a


                                 - 32 -
specific investigative case file. This requires agents to search more
than one database in an effort to obtain all the documents relating to a
case. Additionally, the functionality and operation of the ACS is not
user-friendly and requires the input of several pieces of information to
perform basic tasks. The version of the VCF due by December 31,
2004, (the Initial Operational Capability or IOC) is intended to
demonstrate that case documents can be approved electronically and
uploaded into the ACS. However, this version of the VCF does not
provide the case management and information-sharing system
envisioned for Trilogy.

       In addition to the IOC, the FBI has developed an interim step to
make the ACS more user-friendly by making the system accessible
through the FBI’s intranet. The web-based ACS reduces the number of
steps needed to operate the ACS from 12 to 3 and offers other
features to make the ACS easier to use. However, the FBI’s need for a
fully functional case management system to replace the technologically
obsolete ACS remains urgent.

      Improvements in IT Management

        Despite the problems in completing Trilogy, it is important to
note that the FBI is making progress to improve its IT management.
After appointing a new CIO in May 2004, the FBI reorganized its IT
resources in July 2004. The FBI established the Office of the CIO to
centrally manage all IT responsibilities, activities, policies, and
employees across the FBI. As mentioned earlier, one of the problems
cited in the OIG’s audit of the FBI’s management of IT investments
was that all of the FBI divisions that had IT investments were not
under a single authority and, as a result, had disparate management
processes and procedures. With the FBI’s new IT organization, all IT
projects now fall under the Office of the CIO. (Appendix 5 shows the
organizational chart for the new Office of the CIO.) The CIO has the
responsibility for the FBI’s overall IT efforts, including developing the
FBI’s IT strategic plan and operating budget, developing and
maintaining the FBI’s technology assets, and providing technical
direction for the re-engineering of FBI business processes.

      The Office of the CIO has also developed an FBI-wide Life Cycle
Management Directive to guide FBI personnel on the technical
management and engineering practices used to plan, acquire, operate,
maintain, and replace IT systems and services. The directive provides
detailed guidance to each FBI Program/Project Manager charged with


                                  - 33 -
managing programs or projects throughout the life cycle from
inception to deactivation. The processes and procedures, if fully
implemented, should help prevent the delays and problems that
occurred during the Trilogy project.

      The FBI’s 2004–2009 Strategic Plan includes the objective to
“ensure that all current and future information technology plans work
towards a harmonized system.” This objective would be met through
the creation of an Enterprise Architecture. The FBI is in the process of
creating an Enterprise Architecture by September 2005 through its IT
Portfolio Management Program.

       The FBI’s IT Portfolio Management Program is a phased process
where the documentation of the FBI’s enterprise-wide IT portfolio is
established or, in lay terms, a listing that contains all of the FBI’s
current IT systems will be created, including the technical
documentation of those systems. The first phase in creating the
listing, completed in February 2004, focused on a pilot performance
assessment of Information Resources Division applications. The
second phase of the program, the infrastructure portfolio assessment,
was initiated in March 2004. Once the data collection for this phase is
completed, the next steps include workshops to begin assessing the
division’s current infrastructure. Completion of the portfolio
assessment was targeted for late 2004, and the FBI anticipates that
the recommendations from the completed portfolio will be included in
the development of the FY 2007 budget.20

       Federal Intelligence Information Reports Dissemination System

       In addition to the VCF IOC, the FBI’s CIO pointed to the recent
development of the Federal Intelligence Information Reports
Dissemination System (FIDS) as an example of how the FBI’s
reorganized IT management structure can successfully implement a
significant project, although FIDS does not represent an application as

       20
          In commenting on a draft of this report, the FBI cited the VCF IOC as
demonstrating the advances made in its program management processes to achieve
cost and schedule baselines. For example, the FBI listed the following
improvements: assigning dedicated individuals in key project roles; clearly defining
objectives, requirements, and constraints; planning; using control gates at major
milestones to release funding and keep the project focused; configuration
management; co-locating government and contractor staff; collaborating with other
FBI divisions; and providing project oversight at all levels within and also outside the
FBI. Because the VCF IOC was incomplete at the time of our audit, the OIG could
not evaluate the claims about recent process improvements cited by the FBI.


                                        - 34 -
complex as the VCF or involve case management functions. FIDS is a
web-based system for creating the FBI’s Intelligence Information
Reports (IIR), a primary intelligence product intended for
dissemination throughout the U.S. intelligence community. Through
FIDS, the drafting of IIRs is automated and standardized, and they can
be approved electronically after supervisory review. Because of the
computer language used, FIDs is interoperable with other intelligence
agencies’ systems. Further, a variety of attachments are possible
including photographs, video, and audio. The CIO said that the
system complies with the information-sharing requirements of
Executive Order 13356.

       According to the CIO, the FBI developed FIDS in six months for
$350,000 by adapting an existing secure system used for Foreign
Investigative Surveillance Act requests. The FBI identified, prioritized,
and froze the requirements prior to developing the system. The CIO
said that FIDs results in a standardized FBI-wide format for IIRs and
allows the IIRs to be prepared, approved, and disseminated much
more rapidly. This reporting function, however, does not represent the
significant systems that will be required for a case management
system, and FIDS was only used to demonstrate a recently developed
project that includes some of the functionality a case management
system would include, such as supervisory reviews and information
dissemination.

Conclusion

       The FBI has made progress in modernizing its IT infrastructure
by installing modern computers and providing a secure network.
However, the FBI has not been able to achieve one of the most critical
requirements of the Trilogy project, development and deployment of
the investigative case management capabilities of the VCF. The FBI
does not know how long it will take to achieve this fundamental goal or
what this process will ultimately cost. After more than three years of
attempted development of the VCF at an estimated cost of $170
million, FBI employees are still using the outdated and inadequate ACS
system. While during this process the FBI likely has advanced its
understanding of the requirements needed for a future case
management system, the $170 million obligated to date on
development of the VCF has not fulfilled the FBI’s goal of producing a
usable case management system.




                                 - 35 -
      We found a number of reasons for the FBI’s difficulties in
completing the Trilogy project successfully and on time. One major
reason for the delays and cost growth in the overall project was a lack
of specific design requirements for each of the project components.
Only with specific requirements in place can the methods, costs, and
timeframes for implementation be determined. Because the FBI did
not establish at the outset what was needed for the project and
establish how those needs should be implemented, the cost of the
project ballooned and the implementation schedule slipped. The effect
of the lack of specific design requirements was worsened later by
necessary modifications.

       The Trilogy project, having been initiated prior to September 11,
focused on modernizing the FBI’s infrastructure to make ACS a
user-friendly system. But once the FBI acknowledged that ACS was
too archaic a system, the need for the VCF became evident. Such
changes could have been more easily managed without severe
schedule and cost implications had the technical and performance
requirements been established and the project managed more
effectively.

       The FBI’s decision to use a cost-plus-award-fee contract to
develop Trilogy placed it at a significant disadvantage because the
contract did not establish firm milestones or prescribe penalties for a
contractor that missed deadlines or delivered an unacceptable product.
According to the FBI, it used this type of contract because it wanted to
move forward on the Trilogy project expeditiously. Instead, however,
this process resulted in delays and, with respect to the VCF, ultimately
did not result in a fully functioning product. In addition to an
unsuitable contracting mechanism and the lack of firm design
requirements, the FBI also lacked sound IT management processes,
continuity of project management and oversight, and project
integration and engineering skills. Further, FBI management did not
act in a timely manner on a number of critical internal and external
reports that demonstrated significant project risks. Had well-
established investment management practices been in place earlier,
the FBI’s IT needs may have been defined better, possibly avoiding the
misstep of initially pursuing merely a modification of the ACS system.
In addition, a professional project integrator might have recognized
more quickly the scheduling setbacks for both the infrastructure and
user application components.




                                 - 36 -
      FBI management did not exercise adequate control over the
Trilogy project and its evolution in the early years of the project.
It now appears that with the new organizational structure and
authority given to the CIO in July 2004, project management is
receiving the attention that was needed throughout the Trilogy project.

      Still, the original UAC portion of the Trilogy project remains
incomplete despite the FBI’s allocation of $170 million for the VCF.
Moreover, the cost and schedule for full implementation of the
successor to the VCF through the interagency FICMS effort, is
unknown because: 1) the FBI has not fully established the
requirements for the case management system, and 2) no contract will
be in place to develop the framework for this new case management
system before the third quarter of FY 2005.

       In sum, we believe the FBI’s ability to perform its important
functions effectively, including counterterrorism, counterintelligence,
and criminal law enforcement, will be significantly affected by its
ability to implement a modern case management system.

Recommendations

We recommend that the FBI:

      1. Replace the obsolete ACS system as quickly and as cost-
         effectively as feasible.

      2. Reprogram FBI resources to meet the critical need for a
         functional case management system.

      3. Freeze the critical design requirements for the case
         management system before initiating a new contract and
         ensure that contractor fully understands the requirements
         and has the capability to meet them.

      4. Incorporate development efforts for the VCF into the
         development of the requirements for any successor case
         management system.

      5. Validate and improve, as necessary, financial systems for
         tracking project costs to ensure complete and accurate data.




                                 - 37 -
6. Develop policies and procedures to ensure that future
   contracts for Trilogy-related projects include defined
   requirements, progress milestones, and penalties for
   deviations from the baselines.

7. Establish management controls and accountability to ensure
   that baselines for the remainder of the current user
   applications contract and any successor Trilogy-related
   contracts are met.

8. Apply ITIM processes to all Trilogy-related, or successor,
   projects.

9. Monitor the Enterprise Architecture being developed to
   ensure timely completion as scheduled.




                           - 38 -
             STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

      This audit assessed the FBI’s management of its Trilogy project.
In connection with the audit, as required by the standards, we
reviewed management processes and records to obtain reasonable
assurance that the FBI’s compliance with laws and regulations that, if
not complied with, in our judgment, could have a material effect on
FBI operations. Compliance with laws and regulations applicable to
the FBI’s management of the Trilogy project is the responsibility of the
FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

   •   Justice Acquisition Regulations,

   •   Federal Acquisition Regulations, and

   •   Government Performance and Results Act of 1993.

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to transactions that were not tested, nothing came to our
attention that caused us to believe that FBI management was not in
compliance with the laws and regulations cited above.




                                  - 39 -
            STATEMENT ON INTERNAL CONTROLS

       In planning and performing our audit of the FBI’s management
of its Trilogy project, we considered the FBI’s internal controls for the
purpose of determining our audit procedures. This evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole; however, we noted certain matters that we
consider to be reportable conditions under the Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its Trilogy project. During our audit, we
found the following internal control deficiency.

      •   The Trilogy project’s User Application Component, including
          the Virtual Case File, remains without final requirements or a
          contract to complete and fully implement the project.

       Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its IT investments. This
restriction is not intended to limit the distribution of this report, which
is a matter of public record.




                                   - 40 -
                                                           APPENDIX 1


        OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The primary objectives of the audit were to determine: 1) the
progress made toward achieving the Trilogy project’s schedule, cost,
technical, and performance baselines; and 2) the extent to which
Trilogy will meet the FBI’s overall current and longer-term IT
requirements.

Scope and Methodology

      The audit was performed in accordance with Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objectives. We conducted work at FBI
Headquarters and the Department of Justice in Washington, D.C., and
at FEDSIM and a contractor’s facility in suburban Virginia.

      We interviewed officials from the FBI, the Department, and the
GAO. The FBI officials interviewed were from the Director’s office,
Office of the CIO, Information Resources Division, Criminal Justice
Information Services Division, Inspection Division, and Finance
Division. Additionally, we reviewed documents related to the Trilogy
project, budget documentation, organizational structures,
congressional testimony, and prior GAO and OIG reports.

      To determine whether the FBI is making progress toward
achieving the Trilogy project’s schedule, cost, performance, and
technical baselines, we examined the methodologies the FBI used to
complete established baselines. We did this by reviewing completed
phases of the project and the processes used. For baselines not fully
achieved, we examined the steps being taken by the FBI to achieve
the baselines. We did not audit the FBI’s statements of project costs.

      To determine the extent to which Trilogy will meet the FBI’s
overall current and longer-term IT requirements, we examined the
current status of the Trilogy project, particularly the completion of the
infrastructure components and the continuing lack of an effective case
management system, as well as the future vision of the FBI’s IT
end-state as described by the FBI’s CIO.




                                  - 41 -
                                                            APPENDIX 2


      PRIOR REPORTS ON THE FBI’S INFORMTAION
                   TECHNOLOGY

       Below is a listing of relevant reports concerning the FBI’s
information technology systems. These include reports issued by the
Department of Justice, Office of the Inspector General (OIG), the
Government Accountability Office (GAO), and from other external
entities, as well as FBI internal reports.

OIG Reports on the FBI’s IT

      OIG reports issued over the past 14 years have highlighted
issues concerning the FBI’s utilization of IT, including its investigative
systems. In 1990, the OIG issued a report entitled, The FBI’s
Automatic Data Processing General Controls. This report described 11
internal control weaknesses and found that:

      •   the FBI’s phased implementation of its 10-year Long Range
          Automation Strategy, scheduled for completion in 1990, was
          severely behind schedule and may not be accomplished;

      •   the FBI’s Information Resources Management program was
          fragmented and ineffective, and the FBI’s Information
          Resources Management official did not have effective
          organization-wide authority;

      •   the FBI had not developed and implemented a data
          architecture; and

      •   the FBI’s major mainframe investigative systems were labor
          intensive, complex, untimely, and non-user friendly and few
          agents used these systems.

       The OIG’s July 1999 special report, The Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation, stated that FBI personnel were not well versed
in the ACS system and other databases. Additionally, a November
1999 OIG report entitled A Review of the Justice Department’s
Handling of the Death of Kenneth Michael Trentadue at the Bureau of
Prison’s Federal Transfer Center in Oklahoma City, noted deficiencies
in uploading key evidence into the ACS.

      A March 2002 OIG report entitled, An Investigation of the
Belated Production of Documents in the Oklahoma City Bombing Case,
                                  - 42 -
analyzed the causes for the FBI’s belated delivery of many documents
in the Oklahoma City bombing case. This report concluded that the
ACS system was extraordinarily difficult to use, had significant
deficiencies, and was not the vehicle for moving the FBI into the 21st
century. The report noted that inefficiencies and complexities in the
ACS, combined with the lack of a true information management
system, were contributing factors in the FBI’s failure to provide
hundreds of investigative documents to the defendants in the
Oklahoma City bombing case.

      In May 2002, the OIG issued a report on the FBI’s administrative
and investigative mainframe systems entitled the Independent
Evaluation Pursuant to the Government Information Security Reform
Act, Fiscal Year 2002. The report identified continued vulnerabilities
with management, operational, and technical controls. The report
stated that these vulnerabilities occurred because the Department and
FBI security management had not enforced compliance with existing
security policies, developed a complete set of policies to effectively
secure the administrative and investigative mainframes, or held FBI
personnel responsible for timely correction of recurring findings.
Further, the report stated that FBI management has been slow to
correct identified weaknesses and implement corrective action and, as
a result, many of these deficiencies repeat year after year in
subsequent audits.

       In December 2002, the OIG issued a report on The FBI’s
Management of Information Technology Investments, which included a
case study of the Trilogy project. The report made 30
recommendations, 8 of which addressed the Trilogy project. The
report’s focus was on the need to adopt sound investment
management practices as recommended by the GAO. The report also
stated that the FBI did not fully implement the management processes
associated with successful IT investments. Specifically, the FBI had
failed to implement the following critical processes:

     •   defining and developing IT investment boards,

     •   following a disciplined process of tracking and overseeing
         each project’s cost and schedule milestones over time,




                                 - 43 -
      •   identifying existing IT systems and projects,

      •   identifying the business needs for each IT project, and

      •   using defined processes to select new IT project proposals.

The audit found that the lack of critical IT investment management
processes for Trilogy contributed to missed milestones and led to
uncertainties about cost, schedule, and technical goals.

        In September 2003, the OIG issued a report entitled The Federal
Bureau of Investigation’s Implementation of Information Technology
Recommendations that outlined the FBI’s continued need to address
the recommendations made by oversight organizations concerning its
IT strategies. The report stated that although OIG audits found
repeated deficiencies in the FBI’s IT control environment and lack of
compliance with information security requirements, the current FBI
leadership has committed to enhancing controls to ensure that
recommendations are implemented in a consistent and timely manner.
Additionally, the report noted that the FBI established a system to
facilitate the tracking and implementation of OIG recommendations.

External Reports on the FBI’s IT and Trilogy

      In March 2002, the Commission for the Review of FBI Security
Programs issued a report entitled A Review of FBI Security Programs.
This commission, chaired by former FBI Director William H. Webster,
was established to investigate the espionage of former FBI
Supervisory Special Agent, Robert Hanssen. The report identified a
wide range of IT security issues, including Hanssen’s utilization of the
ACS system to obtain information for the Soviet Union and to track an
FBI counterintelligence investigation. According to Hanssen, “any clerk
in the Bureau could come up with the stuff on that system,” and he
described the lack of security on the ACS system as criminal
negligence. The report asserted that many of its findings resulted
from the FBI’s lack of attention to IT security in developing and
managing computer systems.

      The National Research Council of the National Academies issued
a report in May 2004 entitled A Review of the FBI’s Trilogy Information
Technology Modernization Program. The report was updated in June
2004 to reflect the FBI’s response to the report, because significant
changes had occurred in many of the areas critically reviewed by the
Council. The original report identified significant issues in four major

                                  - 44 -
areas: Enterprise Architecture, system design, project and contract
management, and human resources. For each of these areas,
recommendations were made to address the likelihood of success in
and drive an accelerated pace for the FBI’s IT modernization efforts.
The report concluded that the FBI had made significant progress in
some areas of its IT modernization efforts, such as the modernization
of the computing hardware and baseline software and the deployment
of its networking infrastructure. However, because the FBI’s IT
infrastructure was so inadequate in the past, there was still an
enormous gap between the FBI’s IT capabilities and the capabilities
that are urgently needed.

       The update to the report also stated that the Council saw clear
evidence of progress being made by the FBI to move ahead in its IT
modernization program. This included the appointment of a
permanent CIO and the formation of a staffed program office for
improved IT contract management. The progress being made by the
FBI appeared to the Council to have been more rapid than expected,
although many challenges remained. Sustained success in IT, the
update noted, “require strong and forceful leadership over an extended
period of time.” The Council also emphasized that the FBI’s missions
constitute increasingly information-intensive challenges, and the ability
to integrate and exploit rapid advances in IT capabilities will only
become more critical with time. The update concluded that even with
perfect program management and execution, substantial IT expenses
on an ongoing basis are inevitable and must be anticipated
in the budget process if the FBI is to maximize the operational
leverage that IT offers. The update also concluded that no one should
expect a decrease in expenses for IT when the Trilogy program is
completed.

       The GAO has issued several reports and related testimony that
highlight deficiencies with the FBI’s IT. In a review of the
Department’s Campaign Finance Task Force, the GAO reported in
May 2002 that the FBI lacked an adequate information system that
could manage and interrelate the evidence that had been gathered in
relation to the Task Force’s investigations. Also, as part of a
government-wide assessment of federal agencies, the GAO reported in
February 2002 that the FBI needed to fully establish the management
foundation that is necessary to successfully develop, implement, and
maintain an Enterprise Architecture.

      In September 2003, the GAO issued a report entitled,
Information Technology: FBI Needs an Enterprise Architecture to

                                 - 45 -
Guide Its Modernization Activities. This report reiterated the GAO’s
assertion, made in the May 2002 report on the Department’s
Campaign Finance Task Force, that the FBI did not have an Enterprise
Architecture, although it had begun efforts to develop one.
Additionally, the GAO found that the FBI still did not have the
processes in place to effectively develop, maintain, and implement an
Enterprise Architecture.

      In September 2004, the GAO issued a report entitled,
Information Technology: Foundational Steps Being Taken to Make
Needed FBI Systems Modernization Management Improvements. This
report stated that although improvements are under way and more are
planned, the FBI did not have an integrated plan for modernizing its IT
systems. Each of the FBI’s divisions and other organizational units
that manage IT projects performs integrated planning for its respective
IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help
optimize mission performance, and they do not consistently contain
the elements expected to be found in effective systems modernization
plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until the FBI develops an integrated
systems and modernization plan and effective policies and procedures
for systems acquisition and investment management. Additionally, the
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.

FBI Internal Assessments on Trilogy

      In 2001 and 2002 the FBI performed internal assessments
concerning the management of the Trilogy project. The FBI’s
Inspection Division, Criminal Justice Information Services Division
(CJIS), and a contractor performing independent verification and
validation (IV&V) work for the FBI completed these assessments. The
assessments found that a lack of baselines and oversight posed
potential risks for the Trilogy project to meet its budget, schedule,
technical, and performance goals. The assessments recommended
that the FBI designate a program manager specifically for Trilogy, and
that the program manager immediately take steps to establish
baselines and requirements for the project.




                                - 46 -
       The assessments addressed areas of potential risk within Trilogy,
such as security and configuration management.21 Based on the
recommendations of these reports, the OIG recommended in its
December 2002 report on the FBI’s IT investment management (ITIM)
that Trilogy project managers prepare an action plan to address the
risks identified by the three internal reports on Trilogy. Overviews of
the three independent assessments (FBI Inspection Division Trilogy
Risk Assessment, November 2001; Trilogy Independent Validation and
Verification, December 2001; and CJIS Division Trilogy Assessment,
January 2002) follow.

       Inspection Division Trilogy Risk Assessment

       Because of the size and importance of Trilogy to the FBI, the FBI
Inspection Division’s Major Project Management Oversight Unit
(MPMOU) issued a risk assessment report to the Director in November
2001. This assessment identified areas of high risk within the
acquisition, financial, requirements, and overall project management
of Trilogy. The areas found to be high risk included a lack of project
requirements and baselines, the lack of a defined program
organizational structure and program manager, and improper
scheduling and cost estimates.

      The report recommended that the FBI institute a short-term
strategy to provide interim capabilities and a long-term strategy to
restructure Trilogy. The report also recommended that the short-term
strategy should include a detailed plan identifying what can realistically
be accomplished within a pre-determined period. It further stated that
the short-term plan should have a clearly defined scope so that
progress can be measured and quantified.

      The MPMOU issued follow-up letters to the Director in December
2001 and February 2002 assessing the FBI’s progress in taking action
on the recommendations and mitigating Trilogy’s risks. In
December 2001, the Inspection Division stated that while Trilogy
project managers acknowledged certain project risks, the managers
were willing to accept aspects of those risks and move forward.
However, to address those risks, FBI senior management hired a
program manager for Trilogy in March 2002.


       21
          Configuration management is the discipline of identifying the configuration
of hardware or software systems at each life cycle phase for the purpose of
controlling changes to the configuration and maintaining the integrity and traceability
of the configuration through the entire life cycle.

                                        - 47 -
       In February 2002, the Inspection Division’s letter to the Director
stated that Trilogy project managers disagreed on the level of project
risk for Trilogy. The Inspection Division pointed to the CJIS review and
an outside independent validation and verification report on Trilogy,
both discussed below, establishing that significant risks to the project
exist in the areas originally identified by the Inspection Division. The
Inspection Division reiterated its previous recommendation that called
for the development of a short-term strategy and a long-term strategy
for Trilogy. Inspection Division personnel told us that Trilogy
management did not sufficiently develop these recommended
strategies.

      Trilogy Independent Validation and Verification

      The FBI hired an outside contractor to determine the labor
requirements, level of effort, and verification and validation tasks
necessary to ensure that the Trilogy acquisition would meet the
requirements of FBI users into the future within the established
schedule and budget. The IV&V report, issued in December 2001,
disclosed risks in the program management of Trilogy, the IPC/TNC
portion, and the UAC portion, including: 1) a lack of program
management structure and focus; 2) a lack of formal requirements,
schedules, and baselines; 3) modifications to the UAC/IPC/TNC
portions without formal changes to the contracts.

      CJIS Division Trilogy Assessment

       Upon reviewing the Inspection Division’s risk assessment, the
Director requested the CJIS Division perform an independent review of
Trilogy to get another perspective on the project. The CJIS Division
performed its assessment from January 3-16, 2002. This assessment
covered management, quality assurance, configuration management,
IT security, administrative and technical requirements, and technical
management. The assessment found weaknesses similar to those
identified by the Inspection Division, including: 1) a lack of clear lines
of authority; 2) no clearly designated Program Manager; 3) a lack of
authority and support in the areas of quality assurance, security,
configuration management, and technical requirements; and 4)
insufficient technical reviews of Trilogy documentation.




                                  - 48 -
                                     APPENDIX 3


     DOJ REQUEST FOR INFORMATION FOR THE
FEDERAL INVESTIGATIVE CASE MANAGEMENT SYSTEM




                   - 49 -
- 50 -
                        APPENDIX 4



EXECUTIVE ORDER 13356




        - 51 -
- 52 -
- 53 -
- 54 -
Chief Information Office
Organizational Structure
As of June 1, 2004
                                                APPENDIX 6


         GLOSSARY OF ACRONYMS

ACS      Automated Case Support
CIO      Chief Information Officer
CJIS     Criminal Justice Information Services
CLEA     Criminal Law Enforcement Application
CSC      Computer Sciences Corporation
FBI      Federal Bureau of Investigation
FEDSIM   Federal Systems Integration and Management
         Center
FICMS    Federal Investigative Case Management
         System
FIDS     Federal Intelligence Information Reports
         Dissemination System
FITUP    Federal Bureau of Investigation’s Information
         Technology Upgrade Plan
FOC      Full Operational Capability
GAO      Government Accountability Office
GSA      General Services Administration
IDW      Information Data Warehouse
IIIA     Integrated Intelligence Information Application
IIR      Intelligence Information Report
IPC      Information Presentation Component
IOC      Initial Operational Capability
ISI      Information Sharing Initiative
IT       Information Technology
ITIM     Information Technology Investment
         Management
IV&V     Independent Verification and Validation
JAD      Joint Application Development
MPMOU    Major Project Management Oversight Unit
OIG      Office of the Inspector General
RIA      Reports on Investigative Activity
RFI      Request for Information
RFP      Request for Proposals
SAIC     Science Applications International Corporation
TA       Telephone Application
TNC      Transportation Network Component
UAC      User Application Component
VCF      Virtual Case File
WAN      Wide Area Network




                        - 56 -
                                   APPENDIX 7

THE FBI’S RESPONSE TO THE DRAFT REPORT




                - 57 -
- 58 -
- 59 -
- 60 -
- 61 -
- 62 -
- 63 -
- 64 -
- 65 -
- 66 -
- 67 -
- 68 -
- 69 -
- 70 -
- 71 -
- 72 -
                                                          APPENDIX 8

      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

      Pursuant to the OIG’s standard audit process, the OIG provided
a draft of this audit report to the FBI on December 20, 2004, for its
review and comment. The FBI’s January 26, 2005, response is
included as Appendix 7 of this final report. The FBI concurred with the
nine recommendations in the audit report and also provided comments
regarding three general issues in the report. Our analysis of the FBI’s
response to these three issues and to the nine recommendations is
provided below.

FBI’s General Comments

      1. In its response, the FBI disagreed with the OIG’s assertion
that “the continuing lack of an effective case management system
hinders the FBI’s capability to perform its critical national security
mission.” According to the FBI, such statements “overlook the
substantial IT improvements that directly support our counterterrorism
mission.”

       In our report, we note that there are national security
implications when the FBI must continue to rely on an archaic case
management system, ACS, which hampers analysts and agents from
adequately searching and sharing investigative information. We
believe the ability to timely receive, link, analyze, and share
investigative leads and case information is essential to help prevent
future terrorist attacks. As documented in prior OIG reports, the ACS
is an inefficient and burdensome tool that does not contain all of the
investigative lead and case information available within the FBI. We
found that many FBI employees do not fully use ACS because of its
deficiencies. Further, as stated in the final report of the National
Commission on Terrorist Attacks Upon the United States (the 9/11
Commission): “Finally, the FBI’s information systems were woefully
inadequate. The FBI lacked the ability to know what it knew: there
was no effective mechanism for capturing or sharing its institutional
knowledge.”

       In responding to the audit, the FBI points to improved
capabilities resulting from the Trilogy infrastructure as well as the
availability of various other FBI systems, databases, and analytical
tools to facilitate intelligence analysis and sharing. We do not dispute
the FBI’s progress in these areas, although we did not examine these
other systems because they were not the subject of our audit. We did

                                 - 73 -
analyze the FBI’s progress in implementing the VCF case management
application, which was intended to replace ACS and serve as the FBI’s
sole case management system. The VCF was intended to contain all
investigative lead and case file information in a paperless system. Due
to the FBI’s failure to develop a workable and complete VCF after
spending more than 3 years and $170 million, the FBI continues to
lack a modern case management system containing complete and
accessible investigative lead and case information.

       In responding to several prior OIG reports that identified
substantial deficiencies in the ACS system, the FBI stated that the
deficiencies found within the ACS system would be corrected through
implementation of the VCF.22 However, the VCF still remains under
development without a clear timetable of when it will be implemented
and at what cost. The FBI’s response recognizes the urgent need to
replace ACS, stating that doing so remains the FBI’s top IT priority.

      As pointed out in the prior OIG reports and as noted in this
report, ACS is based on obsolete technology and has been
extraordinarily difficult to use. Furthermore, because agents did not
always use the ACS, the system does not contain complete
investigative case data and records. Also, due to its obsolete
technology, the ACS is not readily or timely used to acquire and link
information across the FBI. Although the FBI recently has reduced the
number of steps needed to use the ACS from 12 to 3, the system
remains archaic. According to a 9/11 Commission Staff Statement on
information sharing within the FBI:

      Although there are many explanations for the failure to
      share information internally, one of the most common in
      the FBI’s outdated information technology, the Automated
      Case Support system in particular. It employs 1980s-era
      technology that is by all accounts user-unfriendly. More
      troubling, the system cannot be used to store or transmit
      top secret or sensitive compartmented information. For a
      variety of reasons, significant information that gets
      collected by the FBI never gets uploaded into the


      22
         Problems with the ACS were discussed in the following OIG reports: The
Handling of FBI Intelligence Information Related to the Justice Department’s
Campaign Finance Investigation (July, 1999); An Investigation of the Belated
Production of Documents in the Oklahoma City Bombing Case (March 2002); and The
FBI’s Management of Information Technology Investments (December 2002).


                                    - 74 -
      Automated Case Support system, or it gets uploaded long
      after it is learned.

       In its response, however, the FBI cites other IT initiatives to
support its assertion that national security remains uncompromised by
the delay in deploying the VCF. For example, the FBI’s response
states that the newly created Investigative Data Warehouse allows FBI
employees greater access to a variety of counterterrorism information.
Although we did not include the Investigative Data Warehouse in our
audit and have not evaluated its capabilities, we believe that the VCF
case management system would have many features that a data
warehouse does not. The VCF was intended to be the backbone of the
FBI’s information systems, replacing the FBI’s paper case files with
electronic files. Case data in the VCF could be approved electronically,
and the electronic files would be available throughout the FBI
immediately as entered, and various lead and case information could
be associated for analysis. The VCF not only would allow
dissemination of this information immediately across the FBI, but
would “push” information to agents and analysts who have a need to
receive it timely. The Investigative Data Warehouse requires that
information be affirmatively uploaded into the warehouse so that
employees can then conduct searches. Updates must be made to the
information in the warehouse, and the information in the warehouse is
not available immediately or universally, unlike information in the VCF.

      In sum, the Investigative Data Warehouse, while perhaps a
useful tool, does not manage case workflow and does not substitute
for an effective case management system. Consequently, the FBI
continues to lack critical tools necessary to maximize the performance
of both its criminal investigative and national security missions.

      2. In its response, the FBI clarified the relationship between the
VCF and the proposed Federal Investigative Case Management System
(FICMS). During our audit, the FBI offered evolving explanations of
the status of the VCF effort and its relationship with FICMS. In June
2004, the FBI had announced a two track corrective plan for the VCF,
which included the development of what the FBI called the Initial
Operational Capability (IOC) and the Full Operational Capability (FOC)
for the VCF. The IOC represented a pilot test consisting of an
electronic approval process. Employees were to create electronic
documents on standard FBI forms, and these forms were to be sent for
approval electronically from within the VCF IOC system. The goal of
the pilot test was to determine the efficiency and effectiveness of the
electronic approval process. Once the initial testing and evaluation

                                 - 75 -
were completed, a determination was to be made as to how the FBI
would proceed with future system deployments.

      The FOC was intended to resolve outstanding issues, provide
advice, and reevaluate requirements for the VCF. Additionally within
the FOC, the processes for document creation, approvals, leads
management, and evidence management were to be developed to
determine the best phased approach to obtain the necessary
components for the FOC.

       However, FBI managers told the OIG audit team in November
2004 that the FICMS would replace the VCF and that requirements for
the FICMS were to include user activities and processes for creating
and approving documents and managing investigative leads, evidence,
and cases. These requirements were expected to come from the VCF
efforts already undertaken, and the VCF was described as the leading
driver for the FICMS. Additionally, the creation of a Request for
Proposal (RFP) from vendors for the FICMS was to include a full case
management capability for the FBI. At the time, the OIG was left with
the impression that, as the name implies, the FICMS was to be an
actual system that could adopt aspects of the stalled VCF effort.

      In commenting on a draft of this report, the FBI suggested that
the FICMS represented a “framework” that would lead to a case
management system. Whether the FBI intended the resulting case
management system to be part of the FICMS effort or a separate
follow-on effort remained unclear from the FBI’s earlier comments.

       However, in its formal response to this report, which is contained
in Appendix 7, the FBI describes the VCF and the FICMS as two
different projects proceeding in parallel. The FBI states that it is
continuing to pursue the VCF through development of an
implementation plan that will result in the deployment of a fully
functional case and records management system. According to the
FBI, it hired Aerospace Corporation to evaluate currently available
software products to determine if they meet the FBI’s requirements.
The FBI also asked Aerospace to evaluate the adequacy of the VCF as
delivered by SAIC to determine what might be salvaged from that
effort.

      In its response, the FBI also states that the FICMS project will
develop a “framework that will govern development of DOJ and
Department of Homeland Security (DHS) investigative case
management systems to ensure the high level of inter-agency

                                 - 76 -
compatibility needed to facilitate information sharing.” The response
states that the FICMS represents a broad blueprint for such systems
and does not replace the VCF. As FICMS is being developed, the FBI
plans to continue working on a case management system, whether it
continues to be called the VCF or is given a new name.

       As a result of this information, we have clarified the report to
reflect the FBI’s current description of the relationship of FICMS and
the VCF.

       3. In its response, the FBI agrees that its oversight of the
Trilogy contracts should have been stronger, but it notes that the FBI
had recognized its limitations and outsourced elements of the project
to other entities, in accordance with guidance from the Department.
The response discusses the role of FEDSIM in acting as the contracting
office for key Trilogy contracts and of others in assisting the FBI with
managing the project. The FBI’s response also describes steps the FBI
has taken to improve its IT management processes as part of what it
called a “top-to-bottom reorganization” of FBI IT resources.

       We agree that the responsibility for the contracting and
management of the Trilogy project was shared among several parties,
including the FBI and FEDSIM. However, the FBI selected FEDSIM and
its Millenia contracting mechanism because the process could be
expedited without the need to first fully develop the design
requirements for the Trilogy project. Consequently, the FBI assumed
certain risks in taking this path in attempting to expedite Trilogy’s
implementation. That approach created problems because the
management processes requiring the development of schedule, cost,
technical, and performance targets for Trilogy were not in place.
Moreover, the FBI, as the consumer, had the primary responsibility for
managing the project and overseeing those retained to assist in that
management. However, we agree that having the FBI act as the
project integrator was unrealistic, given the FBI’s lack of expertise and
experience to perform such a key function of ensuring that all three
components of the project would mesh.

      Additionally, while the FBI stated in its response that while it
recognized its management limitations at the start of the project, it did
not take the necessary steps to correct identified problems. Even
internal FBI reports on Trilogy issued by the FBI’s Inspection and
Criminal Justice Information Service Divisions repeatedly pointed to
the lack of both requirements and project oversight, including
improper scheduling and cost estimates.

                                  - 77 -
       The OIG agrees that the FBI has taken a number of positive
steps to improve its IT management recently. We have noted key
improvements, including those cited by the FBI in its comments,
beginning on page 33 of this report. However, these steps do not
mitigate the significant deficiencies in the FBI’s management of the
Trilogy project, and the problems created by the delay in deploying the
VCF and the associated cost increases. Moreover, while the FBI states
that the VCF’s Initial Operating Capability (IOC) was executed using
the FBI’s new approach to IT management “on schedule and within
budget,” the IOC is only one step towards a fully functioning case
management system. The FBI still has significant work before it can
develop and deploy a modern case management system.

       Finally, in response to the FBI’s “Conclusion” paragraph in its
formal response, we agree that the FBI has taken steps to modernize
its IT, particularly its infrastructure. But the FBI has not succeeded in
its goal to replace the antiquated ACS system with a fully functional
and effective case management system, despite more than 3 years in
development and $170 million. This critical IT project affects the FBI’s
ability to perform its mission as effectively and efficiently as it should,
and implementing an effective case management system should
remain the FBI’s top IT priority.

Response to Recommendations:

1. Resolved. In response to this recommendation, the FBI stated
   that it agrees that it must replace the ACS as quickly and as cost-
   effectively as feasible. The FBI reports that it has contracted to
   examine the VCF software, as well as available off-the-shelf
   software, to determine whether these products could be adapted to
   meet the FBI’s needs. The FBI also points out in its response that
   technological innovation may have overtaken the FBI’s original
   vision for the VCF, and that new products may exist to meet the
   FBI’s need that did not exist when Trilogy began. We agree that
   the FBI must consider new and available technologies. In light of
   the FBI’s agreement that it must replace the obsolete ACS system,
   this recommendation is resolved. The recommendation can be
   closed when the FBI demonstrates that a fully functional case
   management application replacing the ACS has been developed and
   deployed, and is being utilized throughout the FBI.

2. Resolved. This recommendation is resolved based on the FBI’s
   agreement to devote all necessary resources to support a new case

                                  - 78 -
  management system. This recommendation can be closed when
  the FBI provides evidence that it has reprogrammed the resources
  necessary to meet its need for a functional case management
  system.

3. Resolved. This recommendation is resolved based on the FBI’s
   agreement to take steps to establish critical design requirements
   for the case management system before initiating a new contract
   and ensuring that the contractor fully understands the requirements
   and has the capability to meet them. This recommendation can be
   closed when the FBI provides documentation demonstrating that
   the critical design requirements for the case management system
   have been established before initiating a new contract, and that the
   future contractor fully understands the requirements and has the
   capability to meet them.

4. Resolved. The FBI agrees with this recommendation, stating that
   the VCF project “suffered in part from runaway scope.” The FBI
   response also states that it has learned from the VCF experience
   and that it has “adopted a process that will avoid a recurrence.”
   This recommendation is resolved based on the FBI’s agreement to
   incorporate the development efforts for the VCF into the
   requirements for any successor case management system. This
   recommendation can be closed when the FBI provides
   documentation demonstrating that the development of
   requirements for a future case management system incorporates
   the VCF development efforts for any successor case management
   system.

5. Resolved. The OIG acknowledges that the FBI has issued a Life
   Cycle Management Directive (LCMD), which resulted in the closing
   of a broader FBI-wide recommendation in December 2004 from a
   prior OIG report. However, the recommendation in this audit report
   addresses specifically the FBI Inspection Division’s review of the
   Trilogy project’s finances, rather than the broader new LCMD
   process. This recommendation can be closed when the FBI
   provides documentation that the financial systems used for tracking
   Trilogy project costs have been validated and improved to ensure
   complete and accurate data on project costs.

6. Resolved. This recommendation is resolved based on the FBI’s
   agreement with the recommendation. The FBI’s issuance of the
   LCMD resulted in closing a general FBI-wide recommendation in
   December 2004 from a prior OIG report. However, the current

                                - 79 -
  recommendation can be closed when the FBI provides
  documentation demonstrating that upcoming Trilogy-related
  contracts have applied the LCMD and include defined requirements,
  progress milestones, and penalties for deviations from cost,
  schedule, performance, and technical baselines.

7. Resolved. This recommendation is resolved based on the FBI’s
   agreement with the recommendation. Again, the OIG
   acknowledges that the FBI has issued a LCMD. However, this
   recommendation deals specifically with both existing and future
   Trilogy-related contracts. We also note that a recommendation
   from the OIG’s report on the FBI’s IT Investment Management
   regarding the need for establishing baselines has not been closed
   because the FBI has not provided evidence that it has established
   final cost and schedule baselines for the Trilogy project. Further,
   the Full Operational Capability phase of the VCF project is ongoing,
   and additional contracts will be required to complete Trilogy with a
   functional case management system. This recommendation can be
   closed when the FBI provides documentation demonstrating that it
   has established management controls and accountability to ensure
   that baselines are met for current and upcoming Trilogy-related
   contracts.

8. Resolved. This recommendation is resolved based on the FBI’s
   agreement to apply ITIM processes to future IT projects, including
   additional Trilogy-related projects. Because key ITIM-related
   recommendations have not yet been closed from a prior report and
   the VCF portion of Trilogy remains in flux, we have included this
   recommendation to ensure the FBI provides appropriate follow-up
   as it develops a framework for a case management system and to
   completes and deploy such a system. This recommendation can be
   closed when the FBI provides documentation that it has applied
   ITIM processes to both existing and upcoming Trilogy-related
   projects.

9. Resolved. This recommendation is resolved based on the FBI’s
   agreement with the recommendation and its stated progress toward
   completing an Enterprise Architecture. The OIG previously closed a
   recommendation from a prior OIG report that called for the FBI to
   continue its effort to establish an Enterprise Architecture. Due to
   the clear need for the FBI to have a blueprint to effectively manage
   its overall IT, including Trilogy, the current recommendation is for
   the FBI to monitor, or track, the development of its Enterprise
   Architecture to ensure that it meets its September 2005 deadline.

                                 - 80 -
This recommendation can be closed when we receive
documentation of an effective monitoring system for ensuring that
the FBI’s Enterprise Architecture is completed and implemented on
schedule.




                            - 81 -
